Case No.
_____________________________________________________________

IN THE SUPREME COURT OF THE UNITED STATES
_____________________________________________________________
LAMAR McKNIGHT,
Petitioner-Appellant,
v.
JOSIE GASTELO, Warden,
Respondent -Appellee.
___________________________________________
ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
__________________________________
PETITION FOR WRIT OF CERTIORARI
__________________________________
FAY ARFA, A LAW CORPORATION
Fay Arfa, Attorney SBN 100143
10100 Santa Monica Blvd., #300
Los Angeles, CA 90067
Telephone: (310) 841-6805
Fax: (310) 841-0817
E-mail: info@bestdefender.com

ATTORNEY FOR PETITIONER
Lamar McKnight

QUESTIONS PRESENTED
I.

Should a COA Have Been Granted to Decide If the
Trial Court’s Admission of the Gang Expert’s
Testimonial Hearsay Deprived McKnight of His
Right to Confront and Cross Examine Witnesses?

II.

Should a COA Have Been Granted to Decide If the
Trial Court Violated McKnight’s Right to Due
Process and a Fair Trial by Allowing the Gang
Expert to Opine that McKnight Acted in Conformity
with Gang Members’ Character Traits?

III.

Should a COA Have Been Granted to Decide If the
Trial Court Violated McKnight’s Right to Due
Process and a Fair Trial by Issuing a Jury
Instruction that Allowed the Jury to Convict
McKnight on a Natural and Probable Consequences
Theory?

IV.

Should a COA Have Been Granted to Decide If the
Prosecution Failed to Present Substantial Evidence
to Prove the “Primary Activities” Element of the
Gang Enhancement and the Gang Special
Circumstances?

i

TOPICAL INDEX
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . i
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL PROVISIONS INVOLVED . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE FACTS . . . . . . . . . . . . . . . . . . . . . . . . 4
Prosecution Evidence Presented to Both Juries . . . . . . . . 5
The Shooting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
The Investigation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
The Confidential Reliable Informant . . . . . . . . . . . . . 7
Gang Evidence . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Tony Johnson (Johnson) . . . . . . . . . . . . . . . . . . . . . . . 10
REASONS FOR GRANTING CERTIORARI . . . . . . . . . . . . 12
I.

THE NINTH CIRCUIT SHOULD HAVE GRANTED A
COA BECAUSE THE TRIAL COURT’S ADMISSION
OF THE GANG EXPERT’S TESTIMONIAL HEARSAY
DEPRIVED MCKNIGHT OF HIS RIGHT TO
CONFRONT AND CROSS EXAMINE
WITNESSES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
A.

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

B.

The Confrontation Clause . . . . . . . . . . . . . . . . . 13
ii

C.
II.

III.

The CCA’s Unreasonable Opinion . . . . . . . . . . 14

THE NINTH CIRCUIT SHOULD HAVE GRANTED A
COA BECAUSE THE TRIAL COURT VIOLATED
MCKNIGHT’S RIGHT TO DUE PROCESS AND A
FAIR TRIAL BY ALLOWING THE GANG EXPERT
TO OPINE THAT MCKNIGHT ACTED IN
CONFORMITY WITH GANG MEMBERS’
CHARACTER TRAITS . . . . . . . . . . . . . . . . . . . . . . . . . 15
A.

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

B.

Expert Testimony on Ultimate Issue . . . . . . . 15

C.

The CCA’s Opinion Unreasonably Upheld the
Gang Expert Ability to Opine About the Gang
Members’ Character Traits . . . . . . . . . . . . . . . . 16

THE NINTH CIRCUIT SHOULD HAVE GRANTED A
COA BECAUSE THE TRIAL COURT VIOLATED
MCKNIGHT’S RIGHT TO DUE PROCESS AND A
FAIR TRIAL BY ISSUING A JURY INSTRUCTION
THAT ALLOWED THE JURY TO CONVICT
MCKNIGHT ON A NATURAL AND PROBABLE
CONSEQUENCES THEORY . . . . . . . . . . . . . . . . . . . . . 18
A.

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

B.

The Natural and Probable Consequences
Theory . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

C.

The CCA Unreasonably Upheld the Verdict
Based on the Natural and Probable
Consequences Theory . . . . . . . . . . . . . . . . . . . . . . 20

iii

IV.

THE NINTH CIRCUIT SHOULD HAVE GRANTED A
COA BECAUSE THE PROSECUTION FAILED TO
PRESENT SUBSTANTIAL EVIDENCE TO PROVE
THE “PRIMARY ACTIVITIES” ELEMENT OF THE
GANG ENHANCEMENT AND THE GANG SPECIAL
CIRCUMSTANCE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
A.

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

B.

Standard of Review . . . . . . . . . . . . . . . . . . . . . . . . 22

C.

The Elements of Cal. Penal Code §
186.22(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

D.

The CCA Unreasonably Found Sufficient
Evidence to Uphold the “Primary Activities”
Element of the Gang Enhancement and the
Gang Special Circumstance . . . . . . . . . . . . . . . . 24

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
APPENDIX
A . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Ninth Circuit Order
B . . . . . . . . . . . . . . . . . . . . . . . . . . . . U.S. District Court Judgment
U.S. District Court Order Accepting R&R
U.S. District Court R&R
C . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . CA Supreme Court Order
CA Court of Appeal Decision

iv

TABLE OF AUTHORITIES
FEDERAL CASES
Barefoot v. Estelle, 463 U.S. 880 (1983) . . . . . . . . . . . . . . . . . . . . 26
Brecht v. Abrahamson, 507 U.S. 619 (1993) . . . . . . . . . . . . . . . . 21
Crawford v. Washington, 541 U.S. 36 (2004) . . . . . . . . . . . . 13, 14
Davis v. Alaska, 415 U.S. 308 (1974) . . . . . . . . . . . . . . . . . . . . . . 13
Davis v. Washington, 547 U.S. 813 (2006) . . . . . . . . . . . . . . . . . . 14
Delaware v. Van Arsdall, 475 U.S. 673 (1986) . . . . . . . . . . . . . . 13
Estelle v. McGuire, 502 U.S. 62 (1991) . . . . . . . . . . . . . . . . . . . . . 15
Hedgpeth v. Pulido, 555 U.S. 57 (2008) . . . . . . . . . . . . . . . . . . . . 21
Jackson v. Virginia, 443 U.S. 307 (1979) . . . . . . . . . . . . . . . . . . . 22
Moses v. Payne, 555 F.3d 742 (9th Cir. 2009) . . . . . . . . . . . . . . . 15
Slack v. McDaniel, 529 U.S. 473 (2000) . . . . . . . . . . . . . . . . . . . . 26
State v. Cain, N.J. __ A.3d __ WL 958914 (March 15, 2016) . . . 17
Wharton v. Bockting, 549 U.S. 406 (2007) . . . . . . . . . . . . . . . . . . 14
Williams v. Illinois, 567 U.S. 50 (2012) . . . . . . . . . . . . . . . . . . . . 14
STATE CASES
In re Jose T., 230 Cal.App.3d 1455 (1991) . . . . . . . . . . . . . . . . . . 24
People v. Bynam, 496 Mich. 610 (2014) . . . . . . . . . . . . . . . . . . . . 17
People v. Chiu, 59 Cal. 4th 155 (2014) . . . . . . . . . . . . . . . . . . 19, 20
v

People v. Gardeley, 14 Cal.4th 605 (1996) . . . . . . . . . . . . . . . . . . 24
People v. Perez, 118 Cal.App.4th 151 (2004) . . . . . . . . . . . . . . . . 24
People v. Rivera, 234 Cal. App. 4th 1350 (2015) . . . . . . . . . . . . . 20
People v. Sengpadychith, 26 Cal.4th 316 (2001) . . . . . . . . . . . . . 24
People v. Vang, 52 Cal.4th 1038 (2011) . . . . . . . . . . . . . . . . . 16, 17
People v. Vy, 122 Cal.App.4th 1209 (2004) . . . . . . . . . . . . . . . . . 23
State v. Favoccia, 306 Conn. 770 (2012) . . . . . . . . . . . . . . . . . . . 17
FEDERAL CONSTITUTION
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 13
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 13, 15
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 15
FEDERAL STATUTES
28 U.S.C. § 2254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2-4
STATE STATUTES
Cal. Penal Code § 186.20 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Cal. Penal Code § 186.22 . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 22-24
Cal. Penal Code § 187 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Cal. Penal Code § 190.2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 22
Cal. Penal Code § 664 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Cal. Penal Code § 12022.53 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
vi

CALIFORNIA JURY INSTRUCTIONS
CALCRIM No. 417 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
CALCRIM No. 1401 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
CALJIC No. 17.24.2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

vii

Case No.
_____________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
_____________________________________________________________
LAMAR McKNIGHT,
Petitioner-Appellant,
v.
JOSIE GASTELO, Warden,
Respondent -Appellee.
___________________________________________
Petitioner, LAMAR McKNIGHT, petitions for a writ of
certiorari to review the United States Court of Appeals for the
Ninth Circuit’s Order denying McKnight’s request for a certificate
of appealablity. (Appendix A)
OPINION BELOW
On March 4, 2020, the Ninth Circuit Court of Appeals
denied McKnight’s request for a certificate of appealablity.
(Appendix A)

1

JURISDICTION
The jurisdiction of this Court is 28 U.S.C. § 2254(1).
CONSTITUTIONAL PROVISIONS INVOLVED
U.S. Const. Amends. V, VI, XIV; 28 U.S.C.§ 2254.
STATEMENT OF THE CASE
A jury convicted McKnight of first degree murder (Cal.
Penal Code § 187 (a))1 and premeditated and deliberate
attempted murder (§§ 664, 187 (a)). The jury also found true the
special circumstance that the murder was gang related (§ 190.2
(a)(22) ); that the crimes were committed for the benefit of a
criminal street gang (§ 186.22 (b)(1)(C)); and that a principal
discharged a firearm causing great bodily injury or death (§
12022.53 (d) & (e)(1)). (Case No. BA388294)
The trial court sentenced McKnight to state prison as
follows: on count 1 (murder with a special circumstance), to life
without the possibility of parole plus 25 years to life for the
firearm enhancement; on count 2 (attempted murder), a
consecutive term of life plus 20 years to life for the gun

All references are to the California Penal Code unless
otherwise stated.
1

2

enhancement.
The Court of Appeal (CCA) affirmed his convictions. (Case
No. B267503) The California Supreme Court (CSC) denied
review. (Case No. S243936)
McKnight filed a petition for writ of habeas corpus in the
United States District Court. 18 U.S.C. § 2254. The district court
denied his habeas petition, dismissed the petition with prejudice
and denied a certificate of appealability. (No. 2:18-cv-10749 AG
(AFM).)
McKnight appealed to the Ninth Circuit. (Case No. 1956429) On March 4, 2021, the Ninth Circuit denied McKnight’s
request of a certificate of appealability. (Appendix A)

3

STATEMENT OF THE FACTS2
This case involved a drive-by shooting on
Christmas night by members of the 111
Neighborhood Crips gang, who drove into rival
territory and ended up targeting two non gang
members, killing a woman in front of her
three-year-old daughter. At the time of the crimes,
appellant Darnell Deshon Houston (Houston) (the
shooter) was 33 years old, appellant and codefendant
Lamar McKnight (McKnight) (the driver) was 23
years old, and appellant and codefendant Derrick
Williams (Williams) (in the backseat) was 15 years
old.3
Two juries were empanelled—one for Houston
and McKnight (the Green Jury), and one for Williams
(the Orange Jury).

The underlying case facts are taken from the CCA’s opinion
on direct review. Because McKnight has not challenged these
factual findings, they are presumed to be correct. See Crittenden
v. Chappell, 804 F.3d 998, 1011 (9th Cir. 2015) (finding that state
court’s factual findings are presumed correct unless “overcome . . .
by clear and convincing evidence”); 28 U.S.C. § 2254(e)(1).
2

A fourth co-defendant was also charged, Ezekiel Simon
(Simon), who pled no contest to voluntary manslaughter and
attempted murder in exchange for a state prison sentence of 29
years.
3

4

Prosecution Evidence Presented to Both Juries
The Shooting
At approximately 10:00 p.m. on December 25,
2010, victims and friends Diondre Woods (Woods) and
Kashmier James (James) were talking on the street
in front of Woods’s house on 85th Street near Western
Avenue in Los Angeles. They were standing next to
James’s car. Her three-year-old daughter was inside
the car. Woods noticed a blue four-door Chevrolet
Tahoe with tinted windows driving on the street and
slow down as it passed him and James. Woods had
his back to the street and James was facing the
street. Woods took notice because the area was
dangerous and violent since it was part of the
territory of the Eight Trey Gangsters. About 30
seconds later, Woods went to hug James and saw a
“spark.” James exclaimed, “Oh, my God,”and fell onto
Woods, knocking him down. Woods saw a man with a
gun jogging toward him. Woods got up and ran, and
heard gunshots. He slipped and fell on the wet
ground and dislocated his shoulder. He saw the
gunman running toward Western Avenue. Woods was
not hit by any bullets. Woods was not and has never
been a member or associate of any gang. He did not
want to testify and could not identify the shooter
At the time of the shooting, Derrick Jefferson
(Jefferson) was walking in the area and heard
gunshots. He saw a man pointing a gun at a woman,
and he jumped into some bushes for cover. He saw a
dark blue four-door Tahoe with tinted windows and
24-inch chrome rims. He could see two black men
inside the Tahoe, which left the scene quickly with
the engine revving. Jefferson saw a woman on the
ground and ran to her. He could see that she was shot
in the head. The woman, who could not speak,
gestured toward a car. Jefferson noticed a little girl
inside the car. He grabbed the girl and took her to a
5

woman who lived in a nearby home. Jefferson was
accustomed to gang warfare in the area, but when he
saw the injured woman he felt “it went too far.” He
was not and has never been a gang member. When he
returned to the victim, she was dead.
James died from gunshot wounds to her head
and neck, and she had gunshot wounds on her legs
consistent with trajectories indicating she had
already fallen when her legs were shot. Jefferson was
not able to identify the shooter.
The Investigation
Police recovered 13 spent shell casings at the
murder scene, all of which were fired from the same
gun. Police also obtained a surveillance video from a
nearby gas station depicting either a blue Chevrolet
Tahoe or blue GMC Yukon3 4 with rims traveling
southbound on Western Boulevard at approximately
the time of the shooting.
In January 2011, police located a vehicle
matching Jefferson’s description parked in front of a
residence at 110th and Hobart Streets, in the
direction the SUV had fled. It was a blue GMC Yukon
registered to McKnight’s father (the SUV). The SUV
was subsequently repossessed in June 2011. There
were no rims on the SUV at the time of repossession,
but “24” was written on the SUV, suggesting that it
once had 24-inch rims. When police searched
McKnight’s residence in August 2011, they recovered
four rims from the garage that matched Jefferson’s
description and the surveillance video.
Police also searched Williams’s house and found
a notebook entitled “Young Hoodsta” in a drawer.
They also discovered a drawing on the underside of
The juries heard that the Chevrolet Tahoe and GMC Yukon
are very similar vehicles; they are made at the same plant and
have about 90 percent of the same parts.
4

6

the top bunk bed in his bedroom showing a woman
with her eyes crossed out and an X over her body and
three lines next to her.
The Confidential Reliable Informant
After Houston and McKnight were arrested, the
Los Angeles Police Department detectives in charge
of the case, Detectives Stacey Szymkowiak and Roger
Guzman, arranged for a confidential reliable
informant known as “Witness X” to share cells with
Houston and McKnight. Witness X had performed
approximately 200 similar operations and had
received close to $70,000 over the years for his
services. He had belonged to a Neighborhood Crips
gang and recognized Houston because they had been
in prison together in 1995 or 1996. He knew Houston
as “Li’L Pan” from the 111 Neighborhood Crips gang.
Witness X secretly recorded his 2011
conversation with Houston. In 2015, the detectives
had him review a prepared transcript of the
conversation. He found that about 85 to 90 percent of
the transcription was inaccurate. He listened to the
recording with headphones and made extensive
revisions to the transcript. He then met with
prosecutors and detectives and they all made further
changes to the transcript.
The transcript submitted to the juries reflects
that Houston told Witness X that he “was [involved]
in that Western murder” and admitted that he was
the gunman. Houston listed the gang monikers of
four others also involved: “Bar” (McKnight), “Baby
Beefy” (Williams), “E-Loc” (Simon), and “Mister”
(Markel Parker).5 Houston told Witness X that the
younger gang members were not doing enough work
for the gang, and that he was training them. On the
Simon was 16 years old and Markell Parker was 17 years
old at the time of the murder.
5

7

same night as the murder, Houston had taken out
young gang members on an earlier mission outside of
a church and one of the youngsters had fired 17 shots
from a nine-millimeter handgun at seven rivals,
missing them all. The crew had to return to the gang
hangout and rearm. McKnight then drove the SUV to
the scene of the crime. Houston demonstrated how
Woods moved James around, using her as a body
shield, as she was repeatedly shot. Houston did not
feel badly that James was killed because she was
“Tramp associated.”“Tramps” is a disrespectful
reference to members of the Eight Trey Gangsters.
Houston had dismantled the gun and “chunked” it
into the ocean. He did not believe the police had
anything on him other than hearsay. He had been
“politicking” (or arguing) before the shooting and
thought that someone who had overheard the
argument was snitching on him. He was worried that
Williams might be the one who was talking to the
police, and he felt he might have to kill Williams, “I’m
going to have to down Baby Beefy.”
When McKnight talked to Witness X, McKnight
mumbled and used “Pig Latin” because he was leery
of the camera and intercom inside the cell. McKnight
told Witness X that a gun was involved in his crime
and he got rid of it. McKnight believed the police
could not tie him to the 111 Neighborhood Crips gang
because he did not have any tattoos. McKnight also
believed a younger gang member was snitching on
him.
Gang Evidence
Los Angeles County Sheriff’s Detective Eric
McDonagh testified as the prosecution’s gang expert.
He had been an officer for 20 years and had worked
with the gang unit for eight years. He had handled
hundreds of gang-related crimes, “spoken to hundreds
8

of gang members, to gang interventionists,
community leaders, regarding the gang lifestyle, the
culture, the activities within the gang.” He
concentrated on three gangs, including the111
Neighborhood Crips gang. The Eight Trey Gangsters,
or 83rd Gangsters, is a rival gang.
Detective McDonagh opined that all three
appellants, along with Simon, were members of the
111 Neighborhood Crips gang, based on their field
identification cards; Houston’s and McKnight’s selfadmissions; gang-related tattoos on Houston,
Williams and Simon; and other indicia. It was not
unusual for gang members like McKnight not to have
gang tattoos so as to avoid detection by police.
Detective McDonagh explained to the jury that
putting in “work” in the gang context means
committing or assisting in the commission of crimes.
A member gains respect by putting in work. Murder
is the “pinnacle” of status achievement, “the biggest
thing you could do.”
Detective McDonagh opined that the 111
Neighborhood Crips gang’s primary activities “could
be anywhere from graffiti, narcotics sales, shootings,
murders. This is all something that this street gang
participates in.” When asked: “Have you yourself,
based on the years that you have worked this gang,
seen instances of these different types of crimes being
committed by this gang?” Detective McDonagh
responded, “Yes,” He further stated: “These are the
activities that they do. These are their primary things
that they’re doing—I don’t want to say on a daily
basis, but on a weekly basis. Monthly basis. This is
what the gang does.”
Based upon a hypothetical that factually
paralleled the facts of this case, Detective McDonagh
opined that the crimes were committed in association
with the gang because there were multiple gang
members in the SUV. He also opined that the crimes
9

were committed for the benefit of the gang because a
willingness to drive 30 blocks to enter a rival’s
territory to commit murder on a Christmas night
demonstrates that the 111 Neighborhood Crips gang
is “pretty crazy” and instills fear and sends the
message that rivals should not mess with the gang.
If the fact that an earlier mission had gone bad
because a young gangster had fired 17 shots and
missed his intended target was factored into the
hypothetical, Detective McDonagh’s conclusion was
strengthened. He explained that the shooter or older
gang member would take advantage of a teachable
moment with the young gangsters by showing them
how a successful murder mission was carried out.
It was also Detective McDonagh’s opinion that
the three lines underneath Williams’s top bunk bed
were not meant to represent the 111 Neighborhood
Crips gang, because that is not how the gang depicted
its name in writing. Rather, he believed the scratches
were “hash marks” representing personal accounts of
what Williams had done, “notch marks for killings,”
that he was hiding from his parents. Detective
McDonagh also opined that the depiction of a dead
woman with crosses over her was“absolutely not”
mere “doodling.”
Tony Johnson (Johnson)
Johnson was a member of the 111
Neighborhood Crips gang in 2010. He spoke to the
police several times about the shooting in exchange
for leniency after his various arrests, and admitted
that he lied during these conversations. At trial,
Johnson testified that around 9:00 p.m. on December
25, 2010, he was at Simon’s house on St. Andrews at
111th Street, which was a gang hangout. He was
talking to Houston when McKnight pulled up in a
blue Yukon. Houston and McKnight began smoking
10

marijuana and argued over who would pay for it. The
discussion turned heated, and Houston complained
that McKnight was not putting in work for the gang.
McKnight responded, “we can go to the Tramps right
now.” Johnson understood that McKnight was
suggesting they go to the territory of their rivals and
shoot them. Johnson saw Simon get out of the front
passenger seat of the Yukon and get into the back
seat. Houston got into the front passenger seat and
McKnight drove off. Johnson went home.
Three days later, Johnson was with McKnight
at Simon’s house. McKnight told Johnson they had
driven past a man and woman standing at a car
talking, then turned around and pulled up to them.
Houston jumped out and started shooting with a
nine-millimeter gun. The man started running.
McKnight was worried that his truck had been
caught on videotape. Hoping to better his own
situation, Johnson told police where to find the SUV.

11

REASONS FOR GRANTING CERTIORARI
I.

THE NINTH CIRCUIT SHOULD HAVE GRANTED A
COA BECAUSE THE TRIAL COURT’S ADMISSION
OF THE GANG EXPERT’S TESTIMONIAL HEARSAY
DEPRIVED MCKNIGHT OF HIS RIGHT TO
CONFRONT AND CROSS EXAMINE WITNESSES
A.

Introduction

Detective McDonagh testified, in response to a hypothetical,
that a young gang member who got into a vehicle when told to do
so by an older gang member with a gun did so voluntarily.
McDonagh testified, “So him saying that, you know, he thought
that he was ordered or coerced or whatever to get in the car,
he—I believe that—in my opinion and speaking to other gang
members, he did that voluntarily.” (Italics added.)
McDonagh based his opinion partly on conversations with
gang members (5 RT 3736; 6 RT 3935-3937), which were “far
more significant than the classroom or conference hours.” (5 RT
3736) The conversations must have included members of the 111
Neighborhood Crips, one of the three gangs for which McDonagh
had primary responsibility. (5 RT 3736-3737)
McDonagh learned about the gang from conversations with

12

gang members during his investigations. The out-of-court
statements from gang members formed the basis of his opinion
that McKnight acted in association with, at the direction of and
for the benefit of the gang. (10 RT 5489-5490)
McDonagh’s opinion, based upon out of court statements by
gang member elicited from McDonagh’s police investigations,
constituted inadmissible hearsay and deprived McNight of his
constitutional right to confront and cross-examine witnesses.

U.S. Const. amend. VI.
B.

The Confrontation Clause

The Confrontation Clause of the Sixth Amendment
guarantees a criminal defendant the right to cross-examine
witnesses against him. See Delaware v. Van Arsdall, 475 U.S.
673, 678 (1986); Davis v. Alaska, 415 U.S. 308, 315 (1974). To
protect this right, the Confrontation Clause prohibits the
admission of an out-of-court statement at a criminal trial unless
the witness is unavailable to testify and the defendant has had a
prior opportunity for cross-examination. Crawford v. Washington,
541 U.S. 36, 53-54 (2004).

13

The Confrontation Clause, applies to hearsay statements
that are testimonial. Crawford, 541 U.S. at 51; Wharton v.
Bockting, 549 U.S. 406, 420 (2007) (the Confrontation Clause has
no application to non-testimonial statements); Davis v.
Washington, 547 U.S. 813, 821 (2006) (under Crawford, “i]t is the
testimonial character of the statement that separates it from
other hearsay that, while subject to traditional limitations upon
hearsay evidence, is not subject to the Confrontation Clause.”)
The Confrontation Clause does not bar the use of
out-of-court statements for purposes other than establishing the
truth of the matter asserted. Williams v. Illinois, 567 U.S. 50,
57-58 (2012) (plurality opinion); Crawford, 541 U.S. at 59 n.9.
C.

The CCA’s Unreasonable Opinion

The Court of Appeal unreasonably determined that Deputy
McDonagh’s testimony was not case-specific. (Slip Opn. 27-30,
38.) Rather, his testimony was “based on generalized background
information that informed his opinion regarding the cultural
norms and expectations of a gang and its members.” (Slip Opn.
28.)

14

This Court should grant a COA to determine if a “gang
expert’s” opinion, based on impermissible hearsay, violates a
criminal defendant’s right to confront and cross-examine
witnesses.
II.

THE NINTH CIRCUIT SHOULD HAVE GRANTED A
COA BECAUSE THE TRIAL COURT VIOLATED
MCKNIGHT’S RIGHT TO DUE PROCESS AND A
FAIR TRIAL BY ALLOWING THE GANG EXPERT TO
OPINE THAT MCKNIGHT ACTED IN CONFORMITY
WITH GANG MEMBERS’ CHARACTER TRAITS
A.

Introduction

The trial court erroneously permitted the prosecution’s
gang officer to testify that McKnight acted in conformity with
character traits commonly associated with gang members.
McDonagh’s reliance on the expectations of how a gang, including
the 111 Neighborhood Crips gang, would commit an attack in
rival territory denied McKnight his Sixth Amendment right to a
jury and rendered his trial fundamentally unfair in violation of
the Due Process Clause of the Fourteenth Amendment. See
Estelle v. McGuire, 502 U.S. 62, 75 (1991)
B.

Expert Testimony on Ultimate Issue

“Although ‘[a] witness is not permitted to give a direct
15

opinion about the defendant’s guilt or innocence . . . an expert
may otherwise testify regarding even an ultimate issue to be
resolved by the trier of fact.’”Moses v. Payne, 555 F.3d 742, 761
(9th Cir. 2009)
In People v. Vang, 52 Cal.4th 1038, 1048 (2011), the CSC
found that the gang expert “properly could, and did, express an
opinion, based on hypothetical questions that tracked the
evidence, whether the assault, if the jury found it in fact occurred,
would have been for a gang purpose.” The Court reiterated that
expert opinion that particular criminal conduct benefitted a gang
is permissible, even if it embraces the ultimate issue to be decided
by the jury.
C.

The CCA’s Opinion Unreasonably Upheld the
Gang Expert Ability to Opine About the Gang
Members’ Character Traits

In response to a hypothetical, McDonagh testified that
McKnight acted in association with another 111 Neighborhood
Crip gang member because McKnight said “something to the
effect that, ‘Let’s go get these Tramps.’” (10 RT 5489) McDonagh
believed that McKnight acted for the gang’s benefit because he

16

drove 30 blocks to shoot a rival. “This guy is willing to go drive
another gang member to go and commit a murder. It just shows
his willingness to go and participate in this type of violent act.”
(10 RT 5489-5490) McDonagh opined that McKnight acted at the
direction of Houston who was upset that the younger gang
members were not putting in work. (10 RT 5490)
The CSC refused to narrow its decision in People v. Vang, 2
Cal.4th at 1048, 1050, namely, that expert opinion that particular
criminal conduct benefitted the gang is admissible even if it
embraces the ultimate issue to be decided by the jury. (Slip Opn.
30, 38.) Courts in New Jersey, Michigan and Connecticut have
done so. See State v. Cain, N.J. ___ A.3d ___ WL 958914, *9
(March 15, 2016); People v. Bynam, 496 Mich. 610, 615-616; 852
N.W.2d 570 (2014); State v. Favoccia, 306 Conn. 770, 807; 51 A.3d
1002 (2012).
This Court should grant a COA to resolve the split among
the courts about whether an expert may give an opinion that
particular criminal conduct benefitted a gang, even if the opinion
embraces the ultimate issue to be decided by the jury.

17

III.

THE NINTH CIRCUIT SHOULD HAVE GRANTED A
COA BECAUSE THE TRIAL COURT VIOLATED
MCKNIGHT’S RIGHT TO DUE PROCESS AND A
FAIR TRIAL BY ISSUING A JURY INSTRUCTION
THAT ALLOWED THE JURY TO CONVICT
MCNIGHT ON A NATURAL AND PROBABLE
CONSEQUENCES THEORY
A.

Introduction

Over McKnight’s objection, the trial court instructed the
jury that it could find McKnight guilty as an aider and abettor or
on a conspiracy theory the natural and probable consequence of
which would be murder. CALCRIM No. 4176 (RT 6033-6034; (CT

6

The trial court instructed the jury CALCRIM
No. 417 as follows:
A member of a conspiracy is criminally
responsible for the crimes that he or she conspires to
commit, no matter which member of the conspiracy
commits the crime.
A member of a conspiracy is also criminally
responsible for any act of any member of the
conspiracy if that act is done to further the conspiracy
and that act is a natural and probable consequence of
the common plan or design of the conspiracy. This
rule applies even if the act was not intended as part
of the original plan.
A natural and probable consequence is one that
a reasonable person would know is likely to happen if
nothing unusual intervenes. In deciding whether a
consequence is natural and probable, consider all of
the circumstances established by the evidence.
A member of a conspiracy is not criminally
responsible for the act of another member if that act
18

885) (RT 6037; CT 878, 885) But no evidence proved that
McKnight intended to kill James and the prosecutor argued the
defendants intended to kill Woods because he was the rival. (12
RT 6066 [Houston and McKnight were on the “hunt for rivals”],
6067 [“There was an intent to kill Diondre Woods. In fact, based
on the evidence in this case you’ve seen that Diondre Woods was
very much the target. And Kashmier James, as is stated in a
conversation between Mr. Houston and the confidential
informant, she was collateral damage.”].)
B.

The Natural and Probable Consequences
Theory

In People v. Chiu, 59 Cal. 4th 155, 158-159 (2014), the

does not further the common plan or is not a natural
and probable consequence of the common plan.
To prove that the defendant is guilty of the
crime charged in Count One, the People must prove
that:
1. The defendant conspired to commit one of the
following crimes: murder of Diondre Woods;
2. A member of the conspiracy committed
murder of Kashmiri James to further the conspiracy;
AND
3. The murder of Kashmiri James was a
natural and probable consequence of the common
plan or design of the crime that the defendant
conspired to commit.
19

California Supreme held, “An aider and abettor may not be
convicted of first degree premeditated murder under the natural
and probable consequences doctrine. Rather, his or her liability
for that crime must be based on direct aiding and abetting”;
People v. Rivera, 234 Cal. App. 4th 1350 (2015) (Applying the
Chiu holding to conspiracy).
C.

The CCA Unreasonably Upheld the Verdict
Based on the Natural and Probable
Consequences Theory

The CCA found that the trial court erred by instructing the
jury it could find that the James’ murder a natural and probable
consequence of the conspiracy to murder Woods, the attempted
murder victim, under People v. Chiu, 59 Cal.4th at 58-159 (an
aider and abettor may not be convicted of first degree
premeditated murder under the natural and probable
consequences doctrine) and People v. Rivera, 234 Cal.App.4th at
1356 [the reasoning of Chiu applied equally to uncharged
conspiracy liability]. (Slip Opn. 31-35, 39.) But the CCA
unreasonably concluded, beyond a reasonable doubt, that the jury
convicted McKnight on a direct aiding and abetting theory.

20

“A conviction based on a general verdict is subject to
challenge if the jury was instructed on alternative theories of
guilt and may have relied on an invalid one.” Hedgpeth v. Pulido,
555 U.S. 57, 58 (2008) (per curiam). Such errors are subject to
harmless error analysis, meaning that relief is available only if
the flaw in the instructions “and substantial and injurious effect
or influence in determining the jury’s verdict.” Pulido, 555 U.S.
58 (quoting Brecht v. Abrahamson, 507 U.S. 619, 637 (1993).)
Because it cannot be determined from the verdict whether
the jury relied on the legally invalid natural and probable
consequences doctrine or found McKnight guilty as a direct aider
and abettor, McKnight's first degree murder conviction should
have been vacated. The Court of Appeal unreasonably refused to
vacate McKnight’s conviction.
IV.

THE NINTH CIRCUIT SHOULD HAVE GRANTED A
COA BECAUSE THE PROSECUTION FAILED TO
PRESENT SUBSTANTIAL EVIDENCE TO PROVE
THE “PRIMARY ACTIVITIES” ELEMENT OF THE
GANG ENHANCEMENT AND THE GANG SPECIAL
CIRCUMSTANCE
A.

Introduction

The jury found that McKnight committed the murder and
21

attempted murder “for the benefit of, at the direction of, or in
association with a criminal street gang with the specific intent to
promote, further and assist in criminal conduct by gang members
. . .” Cal. Penal Code §186.22(b)(1)(C). The jury also found
McKnight intentionally killed while the defendants were active
participants in a criminal street gang and the murder was carried
out to further the activities of the criminal street gang pursuant
to Penal Code section 190.2(a)(22)…”(CT 897-899) The evidence
failed to support the jury findings on the gang enhancement and
gang special circumstance because the prosecution failed to prove
the gangs’ “primary activities”under California law.
B.

Standard of Review

Under both the United States and California constitutions,
the appellate court must review the entire record in a light
favorable to the judgment below and determine whether
substantial evidence supports the conclusion of the trier of fact
that the prosecution sustained its burden of proving each element
of the crimes charged. Jackson v. Virginia, 443 U.S. 307, 318-319
(1979).

22

C.

The Elements of Cal. Penal Code § 186.22 (b)

The California Street Terrorism Enforcement and
Prevention Act (STEP Act; Cal. Penal Code § 186.20 et seq.)
criminalizes specified acts when committed in connection with a
criminal street gang. Cal. Penal Code, § 186.22 (b)(1) provides for
enhanced punishment for "any person who is convicted of a felony
committed for the benefit of, at the direction of, or in association
with any criminal street gang, with the specific intent to promote,
further, or assist in any criminal conduct gang members. . . ."
A “criminal street gang” is defined as “any ongoing
organization, association, or group of three or more persons,
whether formal or informal, having as one of its primary activities
the commission of one or more of the criminal acts enumerated in
[Cal. Penal Code § 186.22 (e)], . . . ” Cal. Penal Code § 186.22 (f);
italics added. The criminal acts in subdivision (e) include murder,
robbery, burglary, and other felonies. People v. Vy, 122
Cal.App.4th 1209, 1222 (2004).
The "primary activities" element requires proof of one or
more of the offenses listed under subdivision (e), and the court

23

must instruct which of the listed crimes are alleged to be primary
activities. See CALJIC No. 17.24.2; CALCRIM No. 1401.
“The phrase ‘primary activities,’ as used in the gang
statute, implies that the commission of one or more of the
statutorily enumerated crimes is one of the group's ‘chief’ or
‘principal’ occupations. [Citation.] That definition would
necessarily exclude the occasional commission of those crimes by
the group's members. …” People v. Sengpadychith, 26 Cal.4th
316, 323–324 (2001).
Expert testimony that a gang is known for committing one
or more of the offenses in Cal. Penal Code § 186.22 (e) may
establish the "primary activity" requirement to establish that a
group is a criminal street gang. People v. Gardeley, 14 Cal.4th
605, 620 (1996). However, expert testimony based on weak,
insubstantial evidence will not suffice. People v. Perez, 118
Cal.App.4th 151, 160 (2004). The expert's opinion cannot be
based on nonspecific and conclusory hearsay. In re Jose T., 230
Cal.App.3d 1455, 1462 (1991).

24

D.

The CCA Unreasonably Found Sufficient
Evidence to Uphold the “Primary Activities”
Element of the Gang Enhancement and the
Gang Special Circumstance

Detective McDonagh stated that the gang’s primary
activities “could be anywhere from graffiti, narcotics sales,
shootings, murders. This is all something that this street gang
participates in.” When asked: “Have you yourself, based on the
years that you have worked this gang, seen instances of these
different types of crimes being committed by this gang?” Detective
McDonagh said, “Yes.” He further testified, “These are the
activities that they do. These are their primary things that
they're doing –I don’t want to say on a daily basis, but on a
weekly basis. Monthly basis. This is what the gang does.” (6 RT
3926-3927)
The CCA unreasonably found the gang officer’s testimony
sufficient to prove the “primary activities” element of the criminal
street gang enhancement. (Slip Opn. 30-31, 38.)
A COA should have been granted

25

CONCLUSION
McKnight respectfully requests that Certiorari be granted
issued because" ... reasonable jurists could debate whether (or, .
. . agree that) the petition should have been resolved in a
different manner or that the issues presented were 'adequate to
deserve encouragement to proceed further."' Slack v. McDaniel,
529 U.S. 473 (quoting Barefoot v. Estelle, 463 U.S. at 893 and n.
4.)

DATED: May 10, 2021
Respectfully submitted,
FAY ARFA, A LAW CORPORATION

~~~!t°=~--------·
Fay Arfa, Attorney for Petitioner

26

APPENDIX

Case: 19-56429, 03/04/2021, ID: 12024882, DktEntry: 6, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
MAR 4 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

LAMAR MCKNIGHT,

No.

Petitioner-Appellant,
v.
JOSIE GASTELO, Warden,

19-56429

D.C. No. 2:18-cv-10749-AG-AFM
Central District of California,
Los Angeles
ORDER

Respondent-Appellee.
Before:

CANBY and VANDYKE, Circuit Judges.

The request for a certificate of appealability (Docket Entry Nos. 2 & 5) is
denied because appellant has not made a “substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2); see also Miller-El v. Cockrell, 537
U.S. 322, 327 (2003).
Any pending motions are denied as moot.
DENIED.

APPENDIX A

Case 2:18-cv-10749-AG-AFM Document 19 Filed 11/11/19 Page 1 of 1 Page ID #:5864

1
2
3

JS-6

4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

LAMAR McKNIGHT,

12

Petitioner,
v.

13
14

Case No. 2:18-cv-10749 AG (AFM)
JUDGMENT

JOSIE GASTELO, Warden,

15

Respondent.

16
17

This matter came before the Court on the Petition of LAMAR McKNIGHT,

18

for a writ of habeas corpus. Having reviewed the Petition and supporting papers, and

19

having accepted the findings and recommendation of the United States Magistrate

20

Judge,

21
22

IT IS ORDERED AND ADJUDGED that the Petition is denied and the action
is dismissed with prejudice.

23
24

DATED: November 11, 2019

25
26
27

___________________________________
ANDREW J. GUILFORD
UNITED STATES DISTRICT JUDGE

28

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 18 Filed 11/11/19 Page 1 of 1 Page ID #:5863

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

LAMAR McKNIGHT,

12
13
14
15

Petitioner,
v.
JOSIE GASTELO, Warden,

Case No. 2:18-cv-10749-AG (AFM)
ORDER ACCEPTING FINDINGS
AND RECOMMENDATIONS OF
UNITED STATES MAGISTRATE
JUDGE

Respondent.

16
17

Pursuant to 28 U.S.C. § 636, the Court has reviewed the Petition for Writ of

18

Habeas Corpus, records on file and the Report and Recommendation of United States

19

Magistrate Judge. The time for filing Objections to the Report and Recommendation

20

has passed and no Objections have been received. The Court accepts the findings

21

and recommendations of the Magistrate Judge.

22
23

IT IS HEREBY ORDERED that (1) the Petition for Writ of Habeas Corpus is
denied; and (2) Judgment shall be entered dismissing the action with prejudice.

24
25
26
27

DATED: November 11, 2019
____________________________________
ANDREW J. GUILFORD
UNITED STATES DISTRICT JUDGE

28

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 1 of 29 Page ID #:5833

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

LAMAR McKNIGHT,

12

Petitioner,

13
14
15
16

v.

Case No. 2:18-cv-10749-AG (AFM)
REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE
JUDGE

JOSIE GASTELO, Warden,
Respondent.

17
18

This Report and Recommendation is submitted to the Honorable Andrew J.

19

Guilford, United States District Judge, pursuant to 28 U.S.C. § 636 and General Order

20

05-07 of the United States District Court for the Central District of California.

21

PROCEDURAL BACKGROUND

22

On December 28, 2018, Petitioner filed a petition for writ of habeas corpus

23

pursuant to 28 U.S.C. § 2254. Respondent filed an answer to the petition on

24

March 11, 2019. On July 1, 2019, Petitioner filed a reply.

25

STATE COURT PROCEEDINGS

26

Petitioner was charged with murder and attempted murder as the result of a

27

gang-related shooting. The following summary of the evidence presented at

28

Petitioner’s trial is taken from the opinion of the California Court of Appeal. See

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 2 of 29 Page ID #:5834

1

Moses v. Payne, 555 F.3d 742, 746, n.1 (9th Cir. 2009) (state appellate court’s

2

decision statement of facts is afforded a presumption of correctness that may be

3

rebutted only by clear and convincing evidence); 28 U.S.C. § 2254(e)(1). This

4

Court’s independent review of the record confirms that the state appellate court’s

5

summary of the evidence is a fair and accurate one.

6

The Shooting

7

At approximately 10:00 p.m. on December 25, 2010, victims and

8

friends Diondre Woods (Woods) and Kashmier James (James) were

9

talking on the street in front of Woods’s house on 85th Street near

10

Western Avenue in Los Angeles. They were standing next to James’s

11

car. Her three-year-old daughter was inside the car. Woods noticed a

12

blue four-door Chevrolet Tahoe with tinted windows driving on the

13

street and slow down as it passed him and James. Woods had his back

14

to the street and James was facing the street. Woods took notice because

15

the area was dangerous and violent since it was part of the territory of

16

the Eight Trey Gangsters. About 30 seconds later, Woods went to hug

17

James and saw a “spark.” James exclaimed, “Oh, my God,” and fell onto

18

Woods, knocking him down. Woods saw a man with a gun jogging

19

toward him. Woods got up and ran, and heard gunshots. He slipped and

20

fell on the wet ground and dislocated his shoulder. He saw the gunman

21

running toward Western Avenue. Woods was not hit by any bullets.

22

Woods was not and has never been a member or associate of any gang.

23

He did not want to testify and could not identify the shooter.

24

At the time of the shooting, Derrick Jefferson (Jefferson) was

25

walking in the area and heard gunshots. He saw a man pointing a gun at

26

a woman, and he jumped into some bushes for cover. He saw a dark blue

27

four-door Tahoe with tinted windows and 24–inch chrome rims. He

28

could see two black men inside the Tahoe, which left the scene quickly
2

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 3 of 29 Page ID #:5835

1

with the engine revving. Jefferson saw a woman on the ground and ran

2

to her. He could see that she was shot in the head. The woman, who

3

could not speak, gestured toward a car. Jefferson noticed a little girl

4

inside the car. He grabbed the girl and took her to a woman who lived

5

in a nearby home. Jefferson was accustomed to gang warfare in the area,

6

but when he saw the injured woman he felt “it went too far.” He was not

7

and has never been a gang member. When he returned to the victim, she

8

was dead.

9

James died from gunshot wounds to her head and neck, and she

10

had gunshot wounds on her legs consistent with trajectories indicating

11

she had already fallen when her legs were shot. Jefferson was not able to

12

identify the shooter.

13

The Investigation

14

Police recovered 13 spent shell casings at the murder scene, all of

15

which were fired from the same gun. Police also obtained a surveillance

16

video from a nearby gas station depicting either a blue Chevrolet Tahoe

17

or blue GMC Yukon3 with rims traveling southbound on Western

18

Boulevard at approximately the time of the shooting.
_____

19
20
21

3

The juries heard that the Chevrolet Tahoe and GMC Yukon are very similar
vehicles; they are made at the same plant and have about 90 percent of the
same parts.

22

In January 2011, police located a vehicle matching Jefferson’s

23

description parked in front of a residence at 110th and Hobart Streets,

24

in the direction the SUV had fled. It was a blue GMC Yukon registered

25

to McKnight’s father (the SUV). The SUV was subsequently

26

repossessed in June 2011. There were no rims on the SUV at the time of

27

repossession, but “24” was written on the SUV, suggesting that it once

28

had 24-inch rims. When police searched McKnight’s residence in
3

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 4 of 29 Page ID #:5836

1

August 2011, they recovered four rims from the garage that matched

2

Jefferson’s description and the surveillance video.

3

Police also searched [Derrick] Williams’s house and found a

4

notebook entitled “Young Hoodsta” in a drawer. They also discovered

5

a drawing on the underside of the top bunk bed in his bedroom showing

6

a woman with her eyes crossed out and an X over her body and three

7

lines next to her.

8

The Confidential Reliable Informant

9

After Houston and McKnight were arrested, the Los Angeles

10

Police Department detectives in charge of the case, Detectives Stacey

11

Szymkowiak and Roger Guzman, arranged for a confidential reliable

12

informant known as “Witness X” to share cells with Houston and

13

McKnight. Witness X had performed approximately 200 similar

14

operations and had received close to $70,000 over the years for his

15

services. He had belonged to a Neighborhood Crips gang and

16

recognized Houston because they had been in prison together in 1995 or

17

1996. He knew Houston as “Li’L Pan” from the 111 Neighborhood

18

Crips gang.

19

Witness X secretly recorded his 2011 conversation with Houston.

20

In 2015, the detectives had him review a prepared transcript of the

21

conversation. He found that about 85 to 90 percent of the transcription

22

was inaccurate. He listened to the recording with headphones and made

23

extensive revisions to the transcript. He then met with prosecutors and

24

detectives and they all made further changes to the transcript.

25

The transcript submitted to the juries reflects that Houston told

26

Witness X that he “was [involved] in that Western murder” and admitted

27

that he was the gunman. Houston listed the gang monikers of four others

28

also involved: “Bar” (McKnight), “Baby Beefy” (Williams), “E-Loc”
4

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 5 of 29 Page ID #:5837

1

(Simon), and “Mister” (Markell Parker).4 Houston told Witness X that

2

the younger gang members were not doing enough work for the gang,

3

and that he was training them. On the same night as the murder, Houston

4

had taken out young gang members on an earlier mission outside of a

5

church and one of the youngsters had fired 17 shots from a nine-

6

millimeter handgun at seven rivals, missing them all. The crew had to

7

return to the gang hangout and rearm. McKnight then drove the SUV to

8

the scene of the crime. Houston demonstrated how Woods moved James

9

around, using her as a body shield, as she was repeatedly shot. Houston

10

did not feel badly that James was killed because she was “Tramp

11

associated.” “Tramps” is a disrespectful reference to members of the

12

Eight Trey Gangsters. Houston had dismantled the gun and “chunked”

13

it into the ocean. He did not believe the police had anything on him other

14

than hearsay. He had been “politicking” (or arguing) before the shooting

15

and thought that someone who had overheard the argument was

16

snitching on him. He was worried that Williams might be the one who

17

was talking to the police, and he felt he might have to kill Williams, “I'm

18

going to have to down Baby Beefy.”

19

When McKnight talked to Witness X, McKnight mumbled and

20

used “Pig Latin” because he was leery of the camera and intercom inside

21

the cell. McKnight told Witness X that a gun was involved in his crime

22

and he got rid of it. McKnight believed the police could not tie him to

23

the 111 Neighborhood Crips gang because he did not have any tattoos.

24

McKnight also believed a younger gang member was snitching on him.

25

___________
4

26

Simon was 16 years old and Markell Parker was 17 years old at the time
of the murder.

27

Gang Evidence

28

Los Angeles County Sheriff’s Detective Eric McDonagh testified
5

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 6 of 29 Page ID #:5838

1

as the prosecution’s gang expert. He had been an officer for 20 years

2

and had worked with the gang unit for eight years. He had handled

3

hundreds of gang-related crimes, “spoken to hundreds of gang members,

4

to gang interventionists, community leaders, regarding the gang

5

lifestyle, the culture, the activities within the gang.” He concentrated on

6

three gangs, including the 111 Neighborhood Crips gang. The Eight

7

Trey Gangsters, or 83rd Gangsters, is a rival gang.

8

Detective McDonagh opined that all three appellants, along with

9

Simon, were members of the 111 Neighborhood Crips gang, based on

10

their field identification cards; Houston’s and McKnight’s self-

11

admissions; gang-related tattoos on Houston, Williams and Simon; and

12

other indicia. It was not unusual for gang members like McKnight not

13

to have gang tattoos so as to avoid detection by police.

14

Detective McDonagh explained to the jury that putting in “work”

15

in the gang context means committing or assisting in the commission of

16

crimes. A member gains respect by putting in work. Murder is the

17

“pinnacle” of status achievement, “the biggest thing you could do.”

18

Detective McDonagh opined that the 111 Neighborhood Crips

19

gang’s primary activities “could be anywhere from graffiti, narcotics

20

sales, shootings, murders. This is all something that this street gang

21

participates in.” When asked: “Have you yourself, based on the years

22

that you have worked this gang, seen instances of these different types

23

of crimes being committed by this gang?” Detective McDonagh

24

responded, “Yes,” He further stated: “These are the activities that they

25

do. These are their primary things that they’re doing – I don’t want to

26

say on a daily basis, but on a weekly basis. Monthly basis. This is what

27

the gang does.”

28

Based upon a hypothetical that factually paralleled the facts of
6

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 7 of 29 Page ID #:5839

1

this case, Detective McDonagh opined that the crimes were committed

2

in association with the gang because there were multiple gang members

3

in the SUV. He also opined that the crimes were committed for the

4

benefit of the gang because a willingness to drive 30 blocks to enter a

5

rival’s territory to commit murder on a Christmas night demonstrates

6

that the 111 Neighborhood Crips gang is “pretty crazy” and instills fear

7

and sends the message that rivals should not mess with the gang. If the

8

fact that an earlier mission had gone bad because a young gangster had

9

fired 17 shots and missed his intended target was factored into the

10

hypothetical, Detective McDonagh’s conclusion was strengthened. He

11

explained that the shooter or older gang member would take advantage

12

of a teachable moment with the young gangsters by showing them how

13

a successful murder mission was carried out.

14

It was also Detective McDonagh’s opinion that the three lines

15

underneath Williams’s top bunkbed were not meant to represent the 111

16

Neighborhood Crips gang, because that is not how the gang depicted its

17

name in writing. Rather, he believed the scratches were “hash marks”

18

representing personal accounts of what Williams had done, “notch

19

marks for killings,” that he was hiding from his parents. Detective

20

McDonagh also opined that the depiction of a dead woman with crosses

21

over her was “absolutely not” mere “doodling.”

22

Tony Johnson (Johnson)

23

Johnson was a member of the 111 Neighborhood Crips gang in

24

2010. He spoke to the police several times about the shooting in

25

exchange for leniency after his various arrests, and admitted that he lied

26

during these conversations. At trial, Johnson testified that around 9:00

27

p.m. on December 25, 2010, he was at Simon’s house on St. Andrews

28

at 111th Street, which was a gang hangout. He was talking to Houston
7

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 8 of 29 Page ID #:5840

1

when McKnight pulled up in a blue Yukon. Houston and McKnight

2

began smoking marijuana and argued over who would pay for it. The

3

discussion turned heated, and Houston complained that McKnight was

4

not putting in work for the gang. McKnight responded, “we can go to

5

the Tramps right now.” Johnson understood that McKnight was

6

suggesting they go to the territory of their rivals and shoot them.

7

Johnson saw Simon get out of the front passenger seat of the Yukon and

8

get into the back seat. Houston got into the front passenger seat and

9

McKnight drove off. Johnson went home.

10

Three days later, Johnson was with McKnight at Simon’s house.

11

McKnight told Johnson they had driven past a man and woman standing

12

at a car talking, then turned around and pulled up to them. Houston

13

jumped out and started shooting with a nine-millimeter gun. The man

14

started running. McKnight was worried that his truck had been caught

15

on videotape. Hoping to better his own situation, Johnson told police

16

where to find the SUV.
***

17
18

Defense Case

19

None of the three appellants testified in their own defense.

20

McKnight’s brother testified that McKnight was with him on Christmas

21

night in 2010.

22

Rebuttal

23

McKnight told Detective Szymkowiak he had a brother, but never

24
25

mentioned being with him on Christmas in 2010.
(Respondent’s Notice of Lodging, Lodged Document (“LD”) 18 at 5-14.)

26

The three co-defendants were tried together, but two separate juries were

27

impaneled. One jury heard the evidence against Petitioner and McKnight, and the

28

other heard the evidence against Williams (who was fifteen years old at the time of
8

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 9 of 29 Page ID #:5841

1

the offense). (See LD 26 at 3.) Petitioner was convicted of one count of first-degree

2

murder and one count of attempted willful, deliberate, and premeditated murder. As

3

to both counts, the jury found firearm and gang allegations to be true. The jury also

4

found true the special circumstance allegation that the murder was gang-related. On

5

count one (first-degree murder with special circumstances), Petitioner was sentenced

6

to state prison for a term of life without the possibility of parole plus 25 years to life;

7

on count two (attempted murder), Petitioner was sentenced to a consecutive term of

8

life plus 20 years to life. (Clerk’s Transcript (“CT”) 897-899, 1430.)

9

The California Court of Appeal affirmed the convictions of Petitioner and co-

10

defendant Houston but reversed the conviction of co-defendant Derrick Williams.

11

The court also reversed fines against all co-defendants and remanded the case for a

12

new restitution hearing. (LD 18.) The California Supreme Court denied Houston’s

13

and Petitioner’s petitions for review but granted Williams’ petition for review. (LD

14

22; see LD 23.) On May 15, 2018, the California Court of Appeal issued a new

15

opinion reversing the fines imposed against Houston and Petitioner but otherwise

16

affirming their convictions. (LD 26.)1
PETITIONER’S CLAIMS

17
18

Petitioner alleges the following claims for relief:

19

1. The trial court erred in admitting gang expert testimony based upon

20

testimonial hearsay. (ECF No. 1 at 6-7.)

21

2. The trial court erred by allowing the gang expert to testify that Petitioner

22

acted in conformity with character traits associated with gang members and offering

23

an opinion on the ultimate issue. (ECF No. 1 at 6-8.)

24

3. The trial court erroneously instructed the jury that it could find the murder

25

of James was the natural and probable consequence of the conspiracy to murder

26

Woods. (ECF No. 1 at 8-11.)

27
28

1

Williams’s conviction was reversed, and his case was remanded to juvenile court. (LD 26.)
9

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 10 of 29 Page ID #:5842

1
2

4. The evidence was insufficient to support the jury’s findings on the gang
enhancement and the gang special circumstance. (ECF No. 1 at 11-13.)
STANDARD OF REVIEW

3
4
5

A federal court may not grant a writ of habeas corpus on behalf of a person in
state custody

6

with respect to any claim that was adjudicated on the merits in State

7

court proceedings unless the adjudication of the claim (1) resulted in a

8

decision that was contrary to, or involved an unreasonable application

9

of, clearly established Federal law, as determined by the Supreme Court

10

of the United States; or (2) resulted in a decision that was based on an

11

unreasonable determination of the facts in light of the evidence

12

presented in the State court proceeding.

13

28 U.S.C. § 2254(d).

14

As used in section 2254(d)(1), the phrase “clearly established federal law”

15

includes only the holdings, as opposed to the dicta, of Supreme Court decisions

16

existing at the time of the state court decision. Howes v. Fields, 565 U.S. 499, 505

17

(2012) (citing Williams v. Taylor, 529 U.S. 362, 412 (2000)).

18

Under section 2254(d)(1), a state court’s determination that a claim lacks merit

19

precludes federal habeas relief so long as “fairminded jurists could disagree” about

20

the correctness of the state court’s decision. Harrington v. Richter, 562 U.S. 86, 101

21

(2011) (quoting Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). This is true

22

even where a state court’s decision is unaccompanied by an explanation. In such

23

cases, the petitioner must show that “there was no reasonable basis for the state court

24

to deny relief.” Harrington, 562 U.S. at 98. Review of state court decisions under

25

§ 2254(d)(1) “is limited to the record that was before the state court that adjudicated

26

the claim on the merits.” Cullen v. Pinholster, 563 U.S. 170, 180 (2011).

27

Under section 2254(d)(2), relief is warranted only when a state court decision

28

based on a factual determination is “objectively unreasonable in light of the evidence
10

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 11 of 29 Page ID #:5843

1

presented in the state-court proceeding.” Stanley v. Cullen, 633 F.3d 852, 859 (9th

2

Cir. 2011) (quoting Davis v. Woodford, 384 F.3d 628, 638 (9th Cir. 2004)). Further,

3

state court findings of fact – including a state appellate court’s factual summary – are

4

presumed correct unless rebutted by clear and convincing evidence. 28 U.S.C.

5

§ 2254(e)(1); see Vasquez v. Kirkland, 572 F.3d 1029, 1031 n.1 (9th Cir. 2009).

6

Petitioner presented each of his claims to the California Court of Appeal on

7

direct appeal. That court denied them on the merits, and the California Supreme Court

8

summarily denied Petitioner’s petition for review. For purposes of AEDPA review,

9

the Court “looks through” the unexplained denial of the California Supreme Court to

10

the last reasoned decision of the state court – here, the May 18, 2018 opinion of the

11

California Court of Appeal (LD 26). See Wilson v. Sellers, 138 S. Ct. 1188, 1192

12

(2018).
DISCUSSION

13
14
15
16

I.

Admission of Gang Expert Testimony
In Ground One, Petitioner alleges that the trial court erroneously admitted the

testimony of a gang expert based upon “testimonial hearsay.”

17

A. Relevant State Court Proceedings

18

As set forth above, Detective Eric McDonagh testified as a gang expert at

19

Petitioner’s trial. Regarding his personal experience related to gangs, Detective

20

McDonagh testified that he had worked for the Los Angeles County Sheriff’s

21

Department for twenty years, assigned to the gang unit for eight years. According to

22

Detective McDonagh, he had handled hundreds of gang-related crimes and spoken

23

to “hundreds of gang members” about gang activities, lifestyle, and culture. Based

24

upon his experience, when he was asked a hypothetical question paralleling the

25

prosecution’s version of events, Detective McDonagh opined that the crimes were

26

committed for the benefit of a criminal street gang. (Reporter’s Transcript on Appeal

27

(“RT”) 3735-3736, 5484-5493.)

28

On appeal, Petitioner argued that Detective McDonagh’s testimony violated
11

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 12 of 29 Page ID #:5844

1

state and federal rules against the admission of hearsay, thereby depriving him of his

2

right of confrontation. The California Court of Appeal rejected this contention,

3

explaining:

4

In People v. Sanchez (2016) 63 Cal.4th 665, 684 (Sanchez), our

5

Supreme Court held that “When any expert relates to the jury case-

6

specific out-of-court statements, and treats the content of those

7

statements as true and accurate to support the expert's opinion, the

8

statements are hearsay.” (Id. at p. 686.) The statements must therefore

9

be independently proven or covered by a hearsay exception to be

10

admissible. (Ibid.) “Case specific facts are those relating to the particular

11

events and participants alleged to have been involved in the case being

12

tried.” (Id. at p. 676.) Additionally, “[i]f the case is one in which a

13

prosecution expert seeks to relate testimonial hearsay, there is a

14

confrontation clause violation unless (1) there is a showing of

15

unavailability and (2) the defendant had a prior opportunity for cross-

16

examination, or forfeited that right by wrongdoing.” (Id. at p. 686.)

17

Testimonial statements are “‘out-of-court analogs, in purpose and form,

18

of the testimony given by witnesses at trial.’” (Id. at p. 685.)

19

(LD 26 at 28.) The court then rejected the contention that Detective McDonagh

20

related case-specific hearsay when stating that he spoke to other gang members. It

21

concluded:

22

We find Detective McDonagh’s statement to be based on

23

generalized background information that informed his opinion

24

regarding the cultural norms and expectations of a gang and its

25

members. Detective McDonagh testified that he had worked in the gang

26

unit for eight years, during which he had spoken to “hundreds of gang

27

members” developing his understanding and expertise of the dynamics

28

and culture of gangs. His contacts with gang members arose from both
12

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 13 of 29 Page ID #:5845

1

consensual and nonconsensual interactions.

2

Sanchez acknowledged that “experts may relate information

3

acquired through their training and experience, even though that

4

information may have been derived from conversations with others,

5

lectures, study of learned treatises, etc. This latitude is a matter of

6

practicality.” (Sanchez, supra, 63 Cal.4th at p. 675.) “Any expert may

7

still rely on hearsay in forming an opinion, and may tell the jury in

8

general terms that he did so.” (Id. at p. 685.) Sanchez clarified: “Our

9

decision does not call into question the propriety of an expert's

10

testimony concerning background information regarding his knowledge

11

and expertise and premises generally accepted in his field. Indeed, an

12

expert’s background knowledge and experience is what distinguishes

13

him from a lay witness, and, as noted, testimony relating such

14

background information has never been subject to exclusion as hearsay,

15

even though offered for its truth. Thus, our decision does not affect the

16

traditional latitude granted to experts to describe background

17

information and knowledge in the area of his expertise. Our conclusion

18

restores the traditional distinction between an expert’s testimony

19

regarding background information and case-specific facts.” (Ibid.)

20

Detective McDonagh did not state case-specific or testimonial

21

facts. He did not identify anyone by name, he did not state which gang

22

they were from, he did not reveal the content of his conversations, he

23

did not indicate that he spoke to the unidentified gang members in

24

connection with the instant case or while he was investigating any

25

ongoing case at all. He merely made a generalized reference to a body

26

of knowledge acquired over time from multiple sources.

27

(LD 26 at 29-30.)

28
13

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 14 of 29 Page ID #:5846

1

B. Clearly Established Federal Law

2

The Confrontation Clause of the Sixth Amendment guarantees a criminal

3

defendant the right to cross-examine witnesses against him. See Delaware v. Van

4

Arsdall, 475 U.S. 673, 678 (1986); Davis v. Alaska, 415 U.S. 308, 315 (1974). To

5

protect this right, the Confrontation Clause prohibits the admission of an out-of-court

6

statement at a criminal trial unless the witness is unavailable to testify and the

7

defendant has had a prior opportunity for cross-examination. Crawford v.

8

Washington, 541 U.S. 36, 53-54 (2004). The Confrontation Clause, however, does

9

not apply to any out-of-court statement. Rather, it applies only to hearsay statements

10

that are “testimonial.” Crawford, 541 U.S. at 51; Wharton v. Bockting, 549 U.S. 406,

11

420 (2007) (the Confrontation Clause has no application to non-testimonial

12

statements); Davis v. Washington, 547 U.S. 813, 821 (2006) (under Crawford, “[i]t

13

is the testimonial character of the statement that separates it from other hearsay that,

14

while subject to traditional limitations upon hearsay evidence, is not subject to the

15

Confrontation Clause”). Further, the Confrontation Clause does not bar the use of

16

out-of-court statements for purposes other than establishing the truth of the matter

17

asserted. Williams v. Illinois, 567 U.S. 50, 57-58 (2012) (plurality opinion);

18

Crawford, 541 U.S. at 59 n.9.

19

With regard to expert testimony, the Supreme Court has held:

20

When an expert testifies for the prosecution in a criminal case, the

21

defendant has the opportunity to cross-examine the expert about any

22

statements that are offered for their truth. Out-of-court statements that

23

are related by the expert solely for the purpose of explaining the

24

assumptions on which that opinion rests are not offered for their truth

25

and thus fall outside the scope of the Confrontation Clause.

26

Williams, 567 U.S. at 58. Citing Williams, the Ninth Circuit has noted that “[t]he

27

Supreme Court has not clearly established that the admission of out-of-court

28

statements relied on by an expert violates the Confrontation Clause.” Hill v. Virga,
14

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 15 of 29 Page ID #:5847

1

588 F. App’x 723, 724 (9th Cir. 2014); see also Bullcoming v. New Mexico, 564 U.S.

2

647, 673 (2011) (Sotomayor, J., concurring) (“We would face a different question if

3

asked to determine the constitutionality of allowing an expert witness to discuss

4

others’ testimonial statements if the testimonial statements were not themselves

5

admitted as evidence.”).

6

C. Analysis

7

To begin with, federal habeas corpus relief is not available in the absence of

8

United States Supreme Court precedent holding that an expert’s reliance on hearsay

9

testimony violates a defendant’s Confrontation Clause rights. See Hill, 588 F. App’x

10

at 724; Estrada v. Clark, 2019 WL 1337744, at *9 (C.D. Cal. Feb. 13, 2019), report

11

and recommendation adopted, 2019 WL 1330311 (C.D. Cal. Mar. 25, 2019).

12

However, assuming the clearly established law set forth in Crawford governs here,

13

Petitioner’s claim still lacks merit.

14

In his petition, Petitioner does not identify any testimony by Detective

15

McDonagh that contains a statement by a non-testifying individual, and the Court has

16

found none. To the extent that Petitioner complains about Detective McDonagh’s

17

testimony that he had experience engaging in “conversations with gang members”

18

generally, his claim does not implicate the Confrontation Clause because this

19

testimony fails to include any testimonial statement. See generally Delgadillo v.

20

Woodford, 527 F.3d 919, 927 (9th Cir. 2008) (“Although Crawford did not define

21

‘testimonial’ or ‘nontestimonial,’ it made clear that the Confrontation Clause was

22

concerned with ‘testimony,’ which ‘is typically [a] solemn declaration or affirmation

23

made for the purpose of establishing or proving some fact,’ and noted that ‘[a]n

24

accuser who makes a formal statement to government officers bears testimony in a

25

sense that a person who makes a casual remark to an acquaintance does not.’”)

26

(quoting Crawford, 541 U.S. at 51). Because Detective McDonagh did not relay any

27

statement by a non-testifying individual, there was no violation of the Confrontation

28

Clause. See Vasquez v. Montgomery, 2017 WL 3986518, at *15-16 (C.D. Cal.
15

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 16 of 29 Page ID #:5848

1

June 26, 2017) (admission of gang expert testimony did not violate Confrontation

2

Clause where expert testimony did not transmit testimonial statements of gang

3

members), report and recommendation adopted, 2017 WL 3995111 (C.D. Cal.

4

Sept. 1, 2017); see also United States v. Vera, 770 F.3d 1232, 1237 (9th Cir. 2014)

5

(where gang expert testifying in federal case applied his training and experience to

6

the sources before him and reached an independent judgment, his testimony complied

7

with Crawford and the Confrontation Clause); United States v. Hankey, 203 F.3d

8

1160, 1169-1170 (9th Cir. 2000) (no error in admission of gang expert opinion based

9

in part on “street intelligence,” including communications with “thousands of gang

10

members”); Mundell v. Dean, 2014 WL 7338819, at *6 (C.D. Cal. Dec. 22, 2014)

11

(gang expert’s testimony which was based in part on police reports did not consist of

12

“testimonial” statements in violation of Crawford).

13

In his Reply, Petitioner includes a new allegation in support of his claim –

14

namely, that Detective McDonagh improperly relied upon field interview (“FI”)

15

cards written by Deputy Spencer Reedy and Sergeant Mark Marbach, which

16

memorialized stops involving Petitioner. (ECF No. 15 at 12-20.) But any claim based

17

upon “hearsay” included in the FI cards prepared by officers Reedy and Marbach

18

fails because those officers testified at trial and were subject to cross-examination.

19

(See RT 3921-3926, 4210-4228, 4229-4241.) See generally, California v. Green, 399

20

U.S. 149, 158 (1970) (“the Confrontation Clause is not violated by admitting a

21

declarant’s out-of-court statements, as long as the declarant is testifying as a witness

22

and subject to full and effective cross-examination”).

23

Finally, Petitioner contends that the admission of the challenged evidence

24

violated state law, primarily People v. Sanchez. (See ECF No. 15 at 9-19.) Violations

25

of state law, however, do not warrant federal habeas corpus relief. See Estelle v.

26

McGuire, 502 U.S. 62, 67-68 (1991); see also Wilson v. Corcoran, 562 U.S. 1, 5

27

(2010) (per curiam) (“it is only noncompliance with federal law that renders a State’s

28

criminal judgment susceptible to collateral attack in the federal courts”) (original
16

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 17 of 29 Page ID #:5849

1

emphasis). Moreover, the California Court of Appeal found no violation of state law,

2

and this Court is bound by that ruling. See Bradshaw v. Richey, 546 U.S. 74, 76

3

(2005) (“We have repeatedly held that a state court’s interpretation of state law,

4

including one announced on direct appeal of the challenged conviction, binds a

5

federal court sitting in habeas corpus.”); Arias v. Warden, Centinela State Prison,

6

2019 WL 1075275, at *11 (C.D. Cal. Jan. 25, 2019) (federal court cannot revisit state

7

appellate court determination that admission of expert testimony did not violate

8

People v. Sanchez), report and recommendation adopted, 2019 WL 1438066 (C.D.

9

Cal. Mar. 30, 2019).

10

II.

Admission of Expert Testimony that Petitioner Acted in Conformity with

11

Traits of Gang Members

12

In Ground Two, Petitioner alleges that Detective McDonagh’s opinion

13

testimony deprived him of his right to a jury trial and his right to a fair trial.

14

A. Relevant State Court Proceedings

15

During direct examination, the prosecutor asked Detective McDonagh to

16

assume certain hypothetical facts and offer an opinion as to whether the crimes were

17

committed for the benefit of a criminal street gang. Detective McDonagh responded

18

affirmatively. (RT 5484-5493.) In Detective McDonagh’s opinion, the hypothetical

19

driver (i.e., Petitioner) was acting in association with the gang when, before the

20

shooting, he said to the other gang members, “Let’s go get these Tramps.” (RT 5489.)

21

According to Detective McDonagh, the driver “is willing to go drive another gang

22

member to go and commit a murder. It just shows his willingness to go and participate

23

in this type of violent act.” (RT 5489-5490.) He further opined that, based upon the

24

hypothetical, the driver was acting at the direction of the older gang member

25

(Houston) who was upset that others were not “putting in any work.” (RT 5490.)

26

On appeal, Petitioner argued that Detective McDonagh’s opinion intruded on

27

the domain of the jury. The California Court of Appeal rejected his claim, explaining

28

that it was bound by People v. Vang, 52 Cal. 4th 1038 (2011). In Vang, the California
17

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 18 of 29 Page ID #:5850

1

Supreme Court held that a gang expert could express an opinion “based on

2

hypothetical questions that tracked the evidence, whether the [crime], if the jury

3

found it in fact occurred, would have been for a gang purpose.” Vang, 52 Cal. 4th at

4

1048. As noted by the state appellate court, Vang “reiterated that expert opinion that

5

particular criminal conduct benefitted a gang is permissible … even if it embraces

6

the ultimate issue to be decided by the jury.” (LD 26 at 30-31, 39 (quoting Vang, 52

7

Cal. 4th at 1050).)

8

B. Analysis

9

“Although ‘[a] witness is not permitted to give a direct opinion about the

10

defendant’s guilt or innocence ... an expert may otherwise testify regarding even an

11

ultimate issue to be resolved by the trier of fact.’” Moses v. Payne, 555 F.3d 742, 761

12

(9th Cir. 2009) (quoting United States v. Lockett, 919 F.2d 585, 590 (9th Cir. 1990)).

13

As the Ninth Circuit has noted, “there is no clearly established constitutional right to

14

be free of an expert opinion on an ultimate issue.” Maquiz v. Hedgpeth, 907 F.3d

15

1212, 1217 (9th Cir. 2018) (quoting Briceno v. Scribner, 555 F.3d 1069, 1077-1078

16

(9th Cir. 2009)); see also Duvardo v. Giurbino, 410 F. App’x 69, 70 (9th Cir. 2011)

17

(noting that the Supreme Court “has never held that the admission of expert testimony

18

on an ultimate issue to be resolved by the trier of fact violates the Due Process

19

Clause”). Consequently, the Ninth Circuit has found that state court determinations

20

upholding the admission of the opinion of a gang expert on the ultimate issue “cannot

21

be said to be contrary to, or an unreasonable application of, Supreme Court

22

precedent.” Maquiz, 907 F.3d at 1217; Briceno, 555 F.3d at 1077-1078.

23

In light of the absence of clearly established Supreme Court precedent,

24

Petitioner cannot demonstrate that the state court’s determination of his claim is

25

contrary to, or an unreasonable application of, federal law as required by AEDPA.

26

See Wright v. Van Patten, 552 U.S. 120, 126 (2008) (“Because our cases give no

27

clear answer to the question presented, ... it cannot be said that the state court

28

unreasonabl[y] appli[ed] clearly established Federal law.”); see also Machuca v.
18

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 19 of 29 Page ID #:5851

1

Sherman, 2017 WL 3301428, at *9-11 (C.D. Cal. Apr. 3, 2017) (rejecting claim that

2

gang expert offered improper opinion invading province of jury based upon lack of

3

Supreme Court precedent), report and recommendation adopted, 2017 WL 3297994

4

(C.D. Cal. Aug. 1, 2017); Shyne v. Asuncion, 2016 WL 6156081, at *10 (C.D. Cal.

5

Sept. 16, 2016) (Moses and Briceno foreclose claim that the gang expert offered

6

improper testimony based on a hypothetical question identifying the defendants by

7

name), report and recommendation adopted, 2016 WL 6155923 (C.D. Cal. Oct. 20,

8

2016); Fuentes v. Biter, 2016 WL 4253516, at *18 (C.D. Cal. June 23, 2016) (in light

9

of absence of clearly established Supreme Court precedent, petitioner could not

10

prevail on claim that admission of expert opinion testimony usurped role of jury),

11

report and recommendation adopted, 2016 WL 4247585 (C.D. Cal. Aug. 8, 2016).

12

III.

Erroneous Jury Instructions

13

In Ground Three, Petitioner contends that the trial court provided erroneous

14

instruction on accomplice liability under the natural and probable consequences

15

doctrine.

16

A. Relevant State Court Proceedings

17

The trial court instructed the jury on different forms of criminal liability in

18

cases where the defendant is not the actual perpetrator – specifically, aider and abettor

19

liability (RT 6033-6034; CT 885) and conspiracy (RT 6034-6039; CT 878, 886).

20

With respect to aiding and abetting, the jury was instructed:

21

To prove that the defendant is guilty of a crime based on aiding

22

and abetting that crime, the People must prove that:

23

1. The perpetrator committed the crime;

24

2. The defendant knew that the perpetrator intended to commit the

25

crime;

26

3. Before or during the commission of the crime, the defendant

27

intended to aid and abet the perpetrator in committing the crime;

28

AND
19

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 20 of 29 Page ID #:5852

1
2

4. The defendant’s words or conduct did in fact aid and abet the
perpetrator’s commission of the crime.

3

Someone aids and abets a crime if he or she knows of the

4

perpetrator’s unlawful purpose and he or she specifically intends to, and

5

does in fact, aid, facilitate, promote, encourage, or instigate the

6

perpetrator’s commission of that crime.

7

(CT 885.)

8

With respect to liability based upon conspiracy, the trial court instructed the

9

jury that a member of a conspiracy is criminally responsible for any act that is a

10

natural and probable consequence of the conspiracy, even if the act was not intended

11

as part of the original plan. (RT 6037; CT 878.) Further, it instructed the jury that:

12

To prove that the defendant is guilty of the crime charged in

13

Count One, the People must prove that:

14

1. The defendant conspired to commit one of the following crimes:

15
16
17

Murde[r] of Diondre Woods;
2. A member of the conspiracy committed murder of Kashmir James to
further the conspiracy; AND

18

3. The Murder of Kashmir James was a natural and probable

19

consequence of the common plan or design of the crime that he

20

defendant conspired to commit.

21

(CT 878; see RT 6038-6039.)

22

On appeal, Petitioner argued that the instructions permitted the jury to convict

23

him on a legally impermissible theory. His claim was based upon the California

24

Supreme Court’s decisions in People v. Chiu, 59 Cal. 4th 155, 158-159 (2014), and

25

People v. Rivera, 234 Cal. App. 4th 1350 (2015). As the California Court of Appeal

26

explained, Chiu held that “an aider and abettor may not be convicted of first degree

27

premeditated murder under the natural and probable consequences doctrine. Rather,

28

his or her liability for that crime must be based on direct aiding and abetting
20

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 21 of 29 Page ID #:5853

1

principles.” Chiu, 59 Cal. 4th at 158-159. Chiu’s holding applies equally to

2

conspiracy liability. Rivera, 234 Cal. App. 4th at 1356. Thus, the state appellate court

3

found that the instructions were improper under state law. (LD 26 at 32-35, 39.)

4

While the court found the error prejudicial as to Williams, it found the error harmless

5

beyond a reasonable doubt as to Petitioner. As it explained:

6

Where, as here, the jury has been instructed on both a legally

7

permissible theory of first degree murder and an impermissible theory

8

of liability under the natural and probable consequences doctrine,

9

reversal is required unless there is a basis in the record to find that the

10

verdict was based on a valid ground. (Chiu, supra, 59 Cal.4th at p. 167.)

11

“Defendant’s first degree murder conviction must be reversed unless we

12

conclude beyond a reasonable doubt that the jury based its verdict on

13

the legally valid theory that defendant directly aided and abetted the

14

premeditated murder.” (Ibid.)

15

*****

16

First, while Williams’s case was somewhat closer in terms of

17

aiding and abetting liability, the evidence that McKnight was a direct

18

aider and abettor was overwhelming. McKnight and Houston were

19

directly “politicking” or arguing about McKnight’s lack of putting in

20

work for the gang. McKnight took up the challenge by instigating the

21

actual mission into Eight Trey gangster territory to go killing on

22

Christmas. McKnight ordered the younger gang members to get into the

23

SUV, he drove the SUV 30 blocks into rival gang territory, he slowed

24

the SUV as it passed the victims, he brought along the murder weapon

25

and gave it to Houston, he stopped the SUV and waited while Houston

26

got out and did the shooting, and he was the getaway driver who sped

27

off after the shooting. There was no suggestion that he told Houston not

28

to shoot a woman. Later, the distinctive rims on the SUV were removed
21

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 22 of 29 Page ID #:5854

1

and recovered at McKnight’s residence.

2

Second, unlike with Williams’s jury, the prosecutor did not

3

emphasize, and barely mentioned, to McKnight’s jury the theory of

4

conspiracy liability. She also did not discuss the natural and probable

5

consequences doctrine.

6

Third, McKnight’s jury did not submit any jury questions, unlike

7

Williams’s jury, which asked about premeditation, and was further

8

instructed that Williams could be convicted of premeditated murder on

9

a conspiracy theory.

10
11
12

We conclude beyond a reasonable doubt that the jury convicted
McKnight on a direct aiding and abetting theory.
(LD 26 at 39-40.)

13

B. Clearly Established Federal Law

14

Under clearly established Supreme Court precedent, “[a] conviction based on

15

a general verdict is subject to challenge if the jury was instructed on alternative

16

theories of guilt and may have relied on an invalid one.” Hedgpeth v. Pulido, 555

17

U.S. 57, 58 (2008) (per curiam). Such errors are subject to harmless error analysis,

18

meaning that relief is available only if the flaw in the instructions “had substantial

19

and injurious effect or influence in determining the jury’s verdict.” Pulido, 555 U.S.

20

58 (quoting Brecht v. Abrahamson, 507 U.S. 619, 637 (1993)). When a state court

21

has conducted its own harmless error analysis under the Chapman standard, “a

22

federal court may not award habeas relief under § 2254 unless the harmlessness

23

determination itself was unreasonable.” Davis v. Ayala, 135 S. Ct. 2187, 2199 (2015).

24

Furthermore, on habeas corpus review, relief is available only if there is “grave

25

doubt about whether a trial error of federal law had ‘substantial and injurious effect

26

or influence in determining the jury’s verdict.’” Davis, 135 S. Ct. at 2198-2199

27

(quoting O’Neal v. McAninch, 513 U.S. 432, 436 (1995)); see also Hall v. Haws, 861

28

F.3d 977, 992 (9th Cir. 2017) (“[This] standard is so stringent that it ‘subsumes’ the
22

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 23 of 29 Page ID #:5855

1

AEDPA/Chapman standard for review of a state court determination of the

2

harmlessness of a constitutional violation.”) (citation omitted).

3

C. Analysis

4

The state appellate court was not objectively unreasonable in determining that

5

the error was harmless. The prosecution’s case against Petitioner was based upon

6

evidence that he was the one who proposed the mission to shoot Eight Trey gang

7

members. He then drove his fellow gang members, including co-defendant Houston,

8

into Eight Trey gang territory, turned his car around and stopped. Believing that

9

Woods was a rival gang member and that Jones was a “Tramp associate,” Petitioner

10

waited while Houston exited the car and shot them. Petitioner then drove Houston

11

and the others away from the scene. Critically, the prosecutor did not rely upon

12

conspiracy liability or the natural and probable consequences doctrine in arguing the

13

case to the jury. (See RT 6063-6137, 6164-6181.) Under the prosecution’s theory,

14

Petitioner was a direct aider and abettor of the crimes. Indeed, Petitioner’s counsel

15

never mentioned conspiracy liability or the natural and probable consequences

16

doctrine. Rather, the defense argued that Petitioner had nothing to do with the crimes.

17

(See RT 6153-6164.)

18

In his reply, Petitioner contends that the prosecutor “emphasized” the natural

19

and probable consequences doctrine on two occasions during his closing argument.

20

(ECF No. 15 at 23.) Petitioner’s contention is based upon the following arguments

21

made by the prosecutor:

22

1. If you’re talking to somebody that you trust and you’re talking about

23

the fact you have just been accused of participating in a murder,

24

what would you say? Would a reasonable person with common

25

sense say, “I didn’t do it”? Or would they say, “I got put on this;

26

Somebody must be snitching”? (RT 6177.)

27
28

2. Remember, snitching is not lying; snitching means somebody is
telling.
23

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 24 of 29 Page ID #:5856

Would you say, “They’re lying”? Or would you say,

1
2

“Somebody must be snitching”?

3

“Somebody must be snitching,” which is what Mr. Houston

4

says, is an indication that somebody is telling which is an

5

indication that there is somebody with knowledge of the crime

6

that is true and true as to his involvement. Because otherwise he

7

would say what any of you with common sense would say: “I

8

didn’t do it, I didn’t have any part of it. Whoever” -- “If anybody

9

is putting me in this, it’s a lie. It’s not true.”

10

But that’s not what he said. He said what? “Somebody has

11

got to be snitching.” And what is he going to do to those people?

12

He’s going to down them.
Is that what a reasonable person would say?

13
14

(RT 6177-6178.)

15

Petitioner’s contention here is based upon a misconstruction of the

16

prosecutor’s argument. The prosecutor invoked the concept of a “reasonable person”

17

in reference to his argument about what a reasonable person would do or say when

18

accused of a crime he did not commit. The prosecutor relied upon the “common

19

sense” of a reasonable person to argue that Houston’s recorded statements were

20

inconsistent with innocence. (See RT 6176-6178.) Neither of these arguments can be

21

construed as invoking the legal principles imposing criminal liability on a co-

22

conspirator based upon the natural and probable consequences doctrine.

23

In sum, nothing in the record supports the conclusion that the jury relied on

24

the natural and probable consequences doctrine rather than a theory of direct aiding

25

and abetting. Under these circumstances, the state court’s determination that there is

26

no reasonable possibility that Petitioner was convicted of first degree murder under

27

the legally impermissible natural and probable consequences theory was not

28

objectively unreasonable. Accordingly, Petitioner is not entitled to relief on the basis
24

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 25 of 29 Page ID #:5857

1

of this claim. See Zepeda v. Adams, 2017 WL 5128992, at *6 (C.D. Cal. Oct. 31,

2

2017) (petitioner not entitled to relief on basis of Chiu instructional error because

3

state court’s harmless error analysis was not unreasonable; in light of evidence

4

presented at trial, it was reasonable for state court to conclude that the jury likely

5

reached its first-degree murder verdict on the legally valid theory that Petitioner

6

directly aided and abetted a premeditated murder), report and recommendation

7

adopted, 2017 WL 5148429 (C.D. Cal. Nov. 2, 2017); Hernandez v. Ducart, 2017

8

WL 2857536, at *29 (C.D. Cal. Feb. 3, 2017) (state court’s determination that Chiu

9

instructional error was harmless was not unreasonable), report and recommendation

10

adopted, 2017 WL 2836208 (C.D. Cal. June 26, 2017).

11

IV.

Sufficiency of the Evidence

12

In Ground Four, Petitioner alleges that the evidence is insufficient to support

13

the jury’s findings on the gang enhancement and gang special circumstance.

14

Specifically, Petitioner contends that there was insufficient evidence of the gang’s

15

“primary activities” under California law.

16

A. Relevant State Law Proceedings

17

As to both the first-degree murder and the attempted murder counts, the jury

18

found true the allegation that the crime was committed “for the benefit of, at the

19

direction of, or in association with a criminal street gang with the specific intent to

20

promote, further and assist in criminal conduct by gang members…” Cal. Penal Code

21

§186.22(b)(1)(C). With respect to the first-degree murder count, the jury also found

22

true the special circumstance that the “defendants intentionally killed while the

23

defendants were active participants in a criminal street gang and the murder was

24

carried out to further the activities of the criminal street gang pursuant to penal code

25

section 190.2(a)(22)…” (CT 897-899.)

26
27

Petitioner raised his claim regarding the sufficiency of the evidence in his
appeal to the California Court of Appeal. That court rejected it, explaining:

28
25

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 26 of 29 Page ID #:5858

1

“Sufficient proof of the gang’s primary activities might consist of

2

evidence that the group’s members consistently and repeatedly have

3

committed criminal activity listed in the gang statute. Also sufficient

4

might be expert testimony.” (People v. Sengpadychith (2001) 26 Cal.4th

5

316, 324.)

6

When asked about the gang’s primary activities, Detective

7

McDonagh stated that the primary activities “could be anywhere from

8

graffiti, narcotics sales, shootings, murders. This is all something that

9

this street gang participates in.” Williams2 argues that the statement

10

“could be” is insufficient because it is not the equivalent of “was” or

11

“were.” (Italics added.) But this argument wholly ignores the remainder

12

of Detective McDonagh’s testimony. He specifically stated, “This is all

13

something that this street gang participates in.” (Italics added.)

14

Additionally, when asked: “Have you yourself, based on the years that

15

you have worked this gang, seen instances of these different types of

16

crimes being committed by this gang?” Detective McDonagh

17

responded, “Yes.” He further stated: “These are the activities that they

18

do. These are their primary things that they're doing – I don’t want to

19

say on a daily basis, but on a weekly basis. Monthly basis. This is what

20

the gang does.” (Italics added.)
The evidence was sufficient.

21
22

(LD 26 at 31, 39.)

23

B. Clearly Established Federal Law

24

Evidence is sufficient to support a conviction if, “after viewing the evidence

25

in the light most favorable to the prosecution, any rational trier of fact could have

26

found the essential elements of the crime beyond a reasonable doubt.” Jackson v.

27
2

28

Co-defendant Williams raised the issue and Petitioner joined in the same claim. (See LD 5 & LD
6 at 110-115.)
26

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 27 of 29 Page ID #:5859

1

Virginia, 443 U.S. 307, 319 (1979). Where evidence supports conflicting inferences,

2

a reviewing court “must presume ‒ even if it does not affirmatively appear in the

3

record ‒ that the trier of fact resolved any such conflicts in favor of the prosecution,

4

and must defer to that resolution.” Jackson, 443 U.S. at 319, 326. As the Supreme

5

Court has repeatedly emphasized, “it is the responsibility of the jury ‒ not the court

6

‒ to decide what conclusions should be drawn from evidence admitted at trial. A

7

reviewing court may set aside the jury’s verdict on the ground of insufficient

8

evidence only if no rational trier of fact could have agreed with the jury.” Coleman

9

v. Johnson, 566 U.S. 650, 651 (2012) (per curiam) (quoting Cavazos v. Smith, 565

10

U.S. 1, 2 (2011) (per curiam)). Finally, claims of insufficient evidence are analyzed

11

by reference to the elements as defined by state law. Jackson, 443 U.S. at 324 n.16.

12

D. Analysis

13

As set forth above, the relevant state statutes require proof of the existence of

14

a “criminal street gang” which, in turn, requires a showing that one of the group’s

15

“primary activities” is the commission of certain specified crimes. Cal. Penal Code

16

§ 186.22(f). The California Supreme Court has explained that the phrase “primary

17

activities” “implies that the commission of one or more of the statutorily enumerated

18

crimes is one of the group’s ‘chief’ or ‘principal’ occupations,” and “[t]hat definition

19

would necessarily exclude the occasional commission of those crimes by the group's

20

members.” Sengpadychith, 26 Cal. 4th at 323. The enumerated crimes include assault

21

with a deadly weapon, homicide, and sale of controlled substances, among others.

22

Cal. Penal Code § 186.22(e). The California Supreme Court has also stated that a

23

“primary activities” finding may be supported by expert testimony based on

24

conversations with the gang’s members or the result of investigation and information

25

from law enforcement officers. Sengpadychith, 26 Cal. 4th at 324 (citing People v.

26

Gardeley, 14 Cal. 4th 605, 620 (1996)).

27

Petitioner’s conclusory contention that Detective McDonagh’s testimony was

28

insufficient because it amounted to “pure conjecture” (see ECF No. 1 at 12-13) is
27

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 28 of 29 Page ID #:5860

1

belied by the record. As the state appellate court noted, Detective McDonagh testified

2

as a gang expert and explained that his testimony was based in part on his personal

3

experience speaking to hundreds of gang members and participating in hundreds

4

gang crime investigations. (RT 3735-3736.) When Detective McDonagh was asked

5

what the primary activities of the 111 Neighborhood Crips gang were, he answered,

6

“anywhere from graffiti, narcotics sales, shootings, murders.” (RT 3926-3927.)

7

Detective McDonagh also testified that he had personally executed search warrants

8

related to members of the 111 Neighborhood Crips gang, during which he discovered

9

several different firearms indicating that the house was designated for storage of

10

firearms. (RT 3928-3932.)

11

In light of the foregoing evidence, it was not unreasonable for the state court

12

to determine that the evidence was sufficient to support the jury’s finding that the

13

111 Neighborhood Crips was a criminal street gang within the meaning of California

14

law. See Gilliam v. Hedgepeth, 2014 WL 6750223, at *13 (C.D. Cal. Oct. 22, 2014)

15

(“Given Officer Steward’s training and experience as a gang expert, his

16

investigations of the Rollin’ 60’s gang, and his discussions with other officers and

17

with Rollin’ 60’s gang members, Officer Steward’s testimony that Rollin’ 60’s gang

18

members ‘typical[ly]’ commit attempted murders and assaults with firearms as well

19

as his testimony that gang members frequently make terrorist threats to intimidate

20

members of the community was more than sufficient evidence to satisfy the ‘primary

21

activities’ element of the gang enhancement statute.”), report and recommendation

22

adopted, 2014 WL 6751488 (C.D. Cal. Nov. 25, 2014); Mathis v. Lewis, 2014 WL

23

4656395, at *7 (C.D. Cal. July 30, 2014) (on de novo review, finding evidence was

24

sufficient to support jury’s finding on gang enhancement where detective “gave

25

testimony specific to petitioner’s gang and its criminal activities from which the jury

26

reasonably could have found that petitioner’s gang repeatedly engaged unlawful

27

homicides and possession of firearms”), report and recommendation adopted, 2014

28

WL 4656411 (C.D. Cal. Sept. 16, 2014).
28

APPENDIX B

Case 2:18-cv-10749-AG-AFM Document 16 Filed 07/15/19 Page 29 of 29 Page ID #:5861

RECOMMENDATION

1
2

For the foregoing reasons, it is recommended that District Judge issue an

3

Order: (1) accepting and adopting this Report and Recommendation; and

4

(2) directing that Judgment be entered denying the petition and dismissing this action

5

with prejudice.

6
7
8
9
10

DATED: 7/15/2019
____________________________________
ALEXANDER F. MacKINNON
UNITED STATES MAGISTRATE JUDGE

11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
29

APPENDIX B

APPENDIX C

Filed 5/15/18 P. v. Houston CA2/2
Opinion on remand from Supreme Court

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion
has not been certified for publication or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION TWO
THE PEOPLE,

B267503

Plaintiff and Respondent,

(Los Angeles County
Super. Ct. No. BA388294)

v.
OPINION ON REMAND
DARNELL DESHON HOUSTON
et al.,
Defendants and Appellants.

APPEALS from judgments of the Superior Court of
Los Angeles County. Kathleen A. Kennedy, Judge. As to
Houston and McKnight, affirmed in part, reversed in part, and
remanded with directions. As to Williams, reversed in part,
conditionally reversed in part, and remanded with directions.
Peter Gold, under appointment by the Court of Appeal, for
Defendant and Appellant Darnell Deshon Houston.

APPENDIX C

Leslie Conrad, under appointment by the Court of Appeal,
for Defendant and Appellant Lamar McKnight.
Richard A. Levy, under appointment by the Court of
Appeal, for Defendant and Appellant Derrick Williams.
Xavier Becerra, Attorney General, Kathleen A. Kenealy,
Acting Attorney General, Gerald A. Engler, Chief Assistant
Attorney General, Lance E. Winters, Assistant Attorney General,
Steven D. Matthews and Robert C. Schneider, Deputy Attorneys
General, for Plaintiff and Respondent.

____________________

Pursuant to order by the California Supreme Court, we
vacate our original opinion and issue this opinion instead. Our
changes pertain only to appellant and codefendant Derrick
Williams (Williams), a minor at the time of the crimes, following
People v. Superior Court (Lara) (2018) 4 Cal.5th 299 (Lara).
This case involved a drive-by shooting on Christmas night
by members of the 111 Neighborhood Crips gang, who drove into
rival territory and ended up targeting two nongang members,
killing a woman in front of her three-year-old daughter. At the
time of the crimes, appellant Darnell Deshon Houston (Houston)
(the shooter) was 33 years old, appellant and codefendant Lamar

2

APPENDIX C

McKnight (McKnight) (the driver) was 23 years old, and Williams
(in the backseat) was 15 years old.1
Two juries were empanelled—one for Houston and
McKnight (the Green Jury), and one for Williams (the Orange
Jury). The juries found appellants guilty of the two charged
crimes—first degree murder (Pen. Code, § 187, subd. (a)) 2 and
premeditated and deliberate attempted murder (§§ 664, 187,
subd. (a)). The juries also found true the special circumstance
that the murder was gang related within the meaning of section
190.2, subdivision (a)(22), and the allegations that the crimes
were committed for the benefit of a criminal street gang
(§ 186.22, subd. (b)(1)(C)), and that a principal discharged a
firearm causing great bodily injury or death (§ 12022.53, subds.
(d) & (e)(1)).
Houston and McKnight were sentenced to state prison as
follows: on count 1 (murder with a special circumstance), to life
without the possibility of parole plus 25 years to life for the
firearm enhancement; on count 2 (attempted murder), a
consecutive term of life plus 20 years to life for the gun
enhancement. Williams was sentenced on count 1 to 25 years to
life, plus 25 years to life for the gun enhancement, and his
sentence on count 2 of life plus 20 years was to run concurrently.
Various fines were imposed.

A fourth codefendant was also charged, Ezekiel Simon
(Simon), who pled no contest to voluntary manslaughter and
attempted murder in exchange for a state prison sentence of 29
years.

1

All further statutory references are to the Penal Code
unless otherwise indicated.

2

3

APPENDIX C

Appellants filed three separate opening briefs and Williams
filed three supplemental briefs, all of which taken together raise
numerous issues.
For the reasons discussed herein, we affirm the convictions
as to Houston and McKnight, but reverse both the parole
revocation fine and victim restitution fine, and remand the
matter to the trial court for a hearing on the amount of victim
restitution.
As to Williams, we reverse his conviction for first degree
premeditated murder. We also reverse the victim restitution fine
imposed against him. We conditionally reverse his conviction of
premeditated and deliberate attempted murder and allegations
found true by the jury. The case is remanded to the juvenile
court for a transfer hearing (Welf. & Inst. Code, § 707) with
directions, as discussed below.
FACTS
Prosecution Evidence Presented to Both Juries
The Shooting
At approximately 10:00 p.m. on December 25, 2010, victims
and friends Diondre Woods (Woods) and Kashmier James
(James) were talking on the street in front of Woods’s house on
85th Street near Western Avenue in Los Angeles. They were
standing next to James’s car. Her three-year-old daughter was
inside the car. Woods noticed a blue four-door Chevrolet Tahoe
with tinted windows driving on the street and slow down as it
passed him and James. Woods had his back to the street and
James was facing the street. Woods took notice because the area
was dangerous and violent since it was part of the territory of the
Eight Trey Gangsters. About 30 seconds later, Woods went to
hug James and saw a “spark.” James exclaimed, “Oh, my God,”

4

APPENDIX C

and fell onto Woods, knocking him down. Woods saw a man with
a gun jogging toward him. Woods got up and ran, and heard
gunshots. He slipped and fell on the wet ground and dislocated
his shoulder. He saw the gunman running toward Western
Avenue. Woods was not hit by any bullets. Woods was not and
has never been a member or associate of any gang. He did not
want to testify and could not identify the shooter.
At the time of the shooting, Derrick Jefferson (Jefferson)
was walking in the area and heard gunshots. He saw a man
pointing a gun at a woman, and he jumped into some bushes for
cover. He saw a dark blue four-door Tahoe with tinted windows
and 24-inch chrome rims. He could see two black men inside the
Tahoe, which left the scene quickly with the engine revving.
Jefferson saw a woman on the ground and ran to her. He could
see that she was shot in the head. The woman, who could not
speak, gestured toward a car. Jefferson noticed a little girl inside
the car. He grabbed the girl and took her to a woman who lived
in a nearby home. Jefferson was accustomed to gang warfare in
the area, but when he saw the injured woman he felt “it went too
far.” He was not and has never been a gang member. When he
returned to the victim, she was dead.
James died from gunshot wounds to her head and neck,
and she had gunshot wounds on her legs consistent with
trajectories indicating she had already fallen when her legs were
shot. Jefferson was not able to identify the shooter.

5

APPENDIX C

The Investigation
Police recovered 13 spent shell casings at the murder scene,
all of which were fired from the same gun. Police also obtained a
surveillance video from a nearby gas station depicting either a
blue Chevrolet Tahoe or blue GMC Yukon3 with rims traveling
southbound on Western Boulevard at approximately the time of
the shooting.
In January 2011, police located a vehicle matching
Jefferson’s description parked in front of a residence at 110th and
Hobart Streets, in the direction the SUV had fled. It was a blue
GMC Yukon registered to McKnight’s father (the SUV). The
SUV was subsequently repossessed in June 2011. There were no
rims on the SUV at the time of repossession, but “24” was written
on the SUV, suggesting that it once had 24-inch rims. When
police searched McKnight’s residence in August 2011, they
recovered four rims from the garage that matched Jefferson’s
description and the surveillance video.
Police also searched Williams’s house and found a notebook
entitled “Young Hoodsta” in a drawer. They also discovered a
drawing on the underside of the top bunk bed in his bedroom
showing a woman with her eyes crossed out and an X over her
body and three lines next to her.

The juries heard that the Chevrolet Tahoe and GMC Yukon
are very similar vehicles; they are made at the same plant and
have about 90 percent of the same parts.

3

6

APPENDIX C

The Confidential Reliable Informant
After Houston and McKnight were arrested, the
Los Angeles Police Department detectives in charge of the case,
Detectives Stacey Szymkowiak and Roger Guzman, arranged for
a confidential reliable informant known as “Witness X” to share
cells with Houston and McKnight. Witness X had performed
approximately 200 similar operations and had received close to
$70,000 over the years for his services. He had belonged to a
Neighborhood Crips gang and recognized Houston because they
had been in prison together in 1995 or 1996. He knew Houston
as “Li’L Pan” from the 111 Neighborhood Crips gang.
Witness X secretly recorded his 2011 conversation with
Houston. In 2015, the detectives had him review a prepared
transcript of the conversation. He found that about 85 to 90
percent of the transcription was inaccurate. He listened to the
recording with headphones and made extensive revisions to the
transcript. He then met with prosecutors and detectives and
they all made further changes to the transcript.
The transcript submitted to the juries reflects that Houston
told Witness X that he “was [involved] in that Western murder”
and admitted that he was the gunman. Houston listed the gang
monikers of four others also involved: “Bar” (McKnight), “Baby
Beefy” (Williams), “E-Loc” (Simon), and “Mister” (Markell
Parker).4 Houston told Witness X that the younger gang
members were not doing enough work for the gang, and that he
was training them. On the same night as the murder, Houston
had taken out young gang members on an earlier mission outside

Simon was 16 years old and Markell Parker was 17 years
old at the time of the murder.

4

7

APPENDIX C

of a church and one of the youngsters had fired 17 shots from a
nine-millimeter handgun at seven rivals, missing them all. The
crew had to return to the gang hangout and rearm. McKnight
then drove the SUV to the scene of the crime. Houston
demonstrated how Woods moved James around, using her as a
body shield, as she was repeatedly shot. Houston did not feel
badly that James was killed because she was “Tramp associated.”
“Tramps” is a disrespectful reference to members of the Eight
Trey Gangsters. Houston had dismantled the gun and “chunked”
it into the ocean. He did not believe the police had anything on
him other than hearsay. He had been “politicking” (or arguing)
before the shooting and thought that someone who had overheard
the argument was snitching on him. He was worried that
Williams might be the one who was talking to the police, and he
felt he might have to kill Williams, “I’m going to have to down
Baby Beefy.”
When McKnight talked to Witness X, McKnight mumbled
and used “Pig Latin” because he was leery of the camera and
intercom inside the cell. McKnight told Witness X that a gun was
involved in his crime and he got rid of it. McKnight believed the
police could not tie him to the 111 Neighborhood Crips gang
because he did not have any tattoos. McKnight also believed a
younger gang member was snitching on him.
Gang Evidence
Los Angeles County Sheriff’s Detective Eric McDonagh
testified as the prosecution’s gang expert. He had been an officer
for 20 years and had worked with the gang unit for eight years.
He had handled hundreds of gang-related crimes, “spoken to
hundreds of gang members, to gang interventionists, community
leaders, regarding the gang lifestyle, the culture, the activities

8

APPENDIX C

within the gang.” He concentrated on three gangs, including the
111 Neighborhood Crips gang. The Eight Trey Gangsters, or
83rd Gangsters, is a rival gang.
Detective McDonagh opined that all three appellants, along
with Simon, were members of the 111 Neighborhood Crips gang,
based on their field identification cards; Houston’s and
McKnight’s self-admissions; gang-related tattoos on Houston,
Williams and Simon; and other indicia. It was not unusual for
gang members like McKnight not to have gang tattoos so as to
avoid detection by police.
Detective McDonagh explained to the jury that putting in
“work” in the gang context means committing or assisting in the
commission of crimes. A member gains respect by putting in
work. Murder is the “pinnacle” of status achievement, “the
biggest thing you could do.”
Detective McDonagh opined that the 111 Neighborhood
Crips gang’s primary activities “could be anywhere from graffiti,
narcotics sales, shootings, murders. This is all something that
this street gang participates in.” When asked: “Have you
yourself, based on the years that you have worked this gang, seen
instances of these different types of crimes being committed by
this gang?” Detective McDonagh responded, “Yes,” He further
stated: “These are the activities that they do. These are their
primary things that they’re doing—I don’t want to say on a daily
basis, but on a weekly basis. Monthly basis. This is what the
gang does.”
Based upon a hypothetical that factually paralleled the
facts of this case, Detective McDonagh opined that the crimes
were committed in association with the gang because there were
multiple gang members in the SUV. He also opined that the

9

APPENDIX C

crimes were committed for the benefit of the gang because a
willingness to drive 30 blocks to enter a rival’s territory to
commit murder on a Christmas night demonstrates that the 111
Neighborhood Crips gang is “pretty crazy” and instills fear and
sends the message that rivals should not mess with the gang. If
the fact that an earlier mission had gone bad because a young
gangster had fired 17 shots and missed his intended target was
factored into the hypothetical, Detective McDonagh’s conclusion
was strengthened. He explained that the shooter or older gang
member would take advantage of a teachable moment with the
young gangsters by showing them how a successful murder
mission was carried out.
It was also Detective McDonagh’s opinion that the three
lines underneath Williams’s top bunkbed were not meant to
represent the 111 Neighborhood Crips gang, because that is not
how the gang depicted its name in writing. Rather, he believed
the scratches were “hash marks” representing personal accounts
of what Williams had done, “notch marks for killings,” that he
was hiding from his parents. Detective McDonagh also opined
that the depiction of a dead woman with crosses over her was
“absolutely not” mere “doodling.”
Tony Johnson (Johnson)
Johnson was a member of the 111 Neighborhood Crips
gang in 2010. He spoke to the police several times about the
shooting in exchange for leniency after his various arrests, and
admitted that he lied during these conversations. At trial,
Johnson testified that around 9:00 p.m. on December 25, 2010, he
was at Simon’s house on St. Andrews at 111th Street, which was
a gang hangout. He was talking to Houston when McKnight
pulled up in a blue Yukon. Houston and McKnight began

10

APPENDIX C

smoking marijuana and argued over who would pay for it. The
discussion turned heated, and Houston complained that
McKnight was not putting in work for the gang. McKnight
responded, “we can go to the Tramps right now.” Johnson
understood that McKnight was suggesting they go to the territory
of their rivals and shoot them. Johnson saw Simon get out of the
front passenger seat of the Yukon and get into the back seat.
Houston got into the front passenger seat and McKnight drove
off. Johnson went home.
Three days later, Johnson was with McKnight at Simon’s
house. McKnight told Johnson they had driven past a man and
woman standing at a car talking, then turned around and pulled
up to them. Houston jumped out and started shooting with a
nine-millimeter gun. The man started running. McKnight was
worried that his truck had been caught on videotape. Hoping to
better his own situation, Johnson told police where to find the
SUV.
Prosecution Evidence Presented Only to the Orange
Jury—Williams’s Jury
In August 2011, Williams was arrested and interviewed by
Detectives Szymkowiak and Guzman for being an accessory after
the fact. At that time, the detectives did not believe Williams
was in the SUV at the time of the shooting. They only suspected
he might have helped dispose of the SUV’s rims. During the
interview, Williams admitted being at the gang’s hangout on
Christmas night, but he consistently denied any participation in,
or knowledge of, the shooting. When the detectives were
informed that the wheel rims were not found during a
simultaneous police search of his house, they allowed him to go
home.

11

APPENDIX C

A month later in September 2011, after Houston told
Witness X that Williams was in the Yukon during the shooting,
Williams was rearrested and interviewed again by Detectives
Szymkowiak and Guzman.5 The detectives told Williams he had
been identified as being in the SUV. They repeatedly asked him
to tell the truth and repeatedly stated that they could not make
any promises. Williams repeatedly denied being in the SUV.
Detective Szymkowiak explained that Williams would not be
going home like last time, and that “what happens on Monday is
the District Attorney decides whether or not they’re gonna file
charges on you, or whether they’re gonna determine something
else to do with you.” Williams asked what charges would be filed.
Detective Szymkowiak responded: “We’ll find out on Monday.
And it’s gonna be a culmination of our paperwork up to this day
and whatever I write after tonight. And I’m telling you, if I write
tonight that your statement is a bunch of lies, and it doesn’t
match what we’ve already heard from other witnesses and other
co-conspirators and people involved, I can tell you right now the
District Attorney’s gonna be like, ‘Screw this guy.’ [¶] . . . [¶]
He’s a liar.” Williams then announced he was going to “keep it
one hundred.”
Williams admitted he was present when Houston
complained that McKnight and others were not putting in enough
work for the gang. Williams stated: “And they was over there
mad and drunk talkin’ about that we’re not puttin’ in no work”
and “they was arguin’ over us like we don’t put in no work. We
don’t’ do nothin.” McKnight, who was drunk, told Williams,

Video and audio recordings of both interviews were played
for the Orange jury, which also received written transcripts.

5

12

APPENDIX C

Simon and Parker to get into the backseat of the SUV. Williams
did not resist because McKnight had a gun. Detective
Szymkowiak asked Williams what he thought putting in work for
his gang entailed. Williams responded, “Killing people.” He
claimed that he did not want to do any killing on the night of the
shooting, “I’m like, nah, I’m not feeling it, I’m not feeling it . . . to
kill nobody. . . . I didn’t kill nobody.” Williams stated that
McKnight had once tried to get him to rob a woman but Williams
had not gone along. Williams admitted that on the night of the
shooting he sat in the backseat between Simon and Markell
Parker, McKnight was the driver and Houston did the shooting.
Williams told the detectives that when Houston started shooting,
Williams could not do anything about it: “I couldn’t just like hop
out and run right there ‘cause I’m not nowhere by my
house. . . . And this is the first time ever in my life, ever, doin’,
bein’ in any situation, anything like that. So I’m, I don’t know
. . . what I’m supposed to do. I was just fifteen at the
time. . . . And I couldn’t do anything.”
Detective McDonagh opined that a 15-year-old gang
member sitting in the backseat of a car when gang members went
to do work in a rival gang’s territory was acting in association
with the gang because he was part of a team of five gang
members. He also acted at the direction of the gang because he
got into the car in order to comply with a senior member’s
command to go out and do work for the gang. His participation
benefitted the gang because he would act as a backup in the
event of the need to defend against rivals, act as a lookout for
police and rivals, and validate the actual crime being committed;
everyone has a role to play. Detective McDonagh stated: “There
is no doubt in my mind that every single person in that car knew

13

APPENDIX C

what they were going to do, and they did it for the benefit of their
gang.” The fact that the young gang member had previously
declined to participate in other crimes but went along this time
supports the conclusion that he was acting for the benefit of the
gang. Detective McDonagh was also of the opinion that the
young gang member voluntarily got into the car and was not
coerced, even though the more senior member had a gun when
telling the youngster to get in the car, because “[b]eing a gang
member, you—have this expectation—hanging out in a gang is
not just for fun and to get girls. They are there to promote their
neighborhood. They are there to promote violence. They are
there to promote the gang life. [¶] . . . In my opinion and
speaking to other gang members he did that voluntarily.”
Detective McDonagh was unaware of any young gang member
who had been killed for declining to participate in a crime. The
fact that the young gang member was at a gang house with gang
members on Christmas night, instead of being with his own
family, indicated that he was part of the gang “family” and was
acting by choice.
Defense Case
None of the three appellants testified in their own defense.
McKnight’s brother testified that McKnight was with him on
Christmas night in 2010.
Rebuttal
McKnight told Detective Szymkowiak he had a brother, but
never mentioned being with him on Christmas in 2010.

14

APPENDIX C

DISCUSSION
We address each appellant’s appeal separately.
WILLIAMS’S APPEAL
I. There Was Sufficient Evidence that Williams Aided and
Abetted
Williams contends that his convictions on both counts must
be reversed because there was insufficient evidence that he aided
and abetted the shooting.
“‘A “person aids and abets the commission of a crime when
he or she, acting with (1) knowledge of the unlawful purpose of
the perpetrator; and (2) the intent or purpose of committing,
encouraging, or facilitating the commission of the offense, (3) by
act or advice aids, promotes, encourages or instigates, the
commission of the crime.’”” (People v. Nguyen (2015) 61 Cal.4th
1015, 1054 (Nguyen).)6 “‘Among the factors which may be

The jury was instructed with CALCRIM No. 401 that to be
“guilty of a crime based on aiding and abetting that crime, the
People must prove that: [¶] 1. The perpetrator committed the
crime; [¶] 2. The defendant knew that the perpetrator intended
to commit the crime; [¶] 3. Before or during the commission of
the crime, the defendant intended to aid and abet the perpetrator
in committing the crime; [¶] AND [¶] 4. The defendant’s words
or conduct did in fact aid and abet the perpetrator’s commission
of the crime. [¶] Someone aids and abets a crime if he or she
knows of the perpetrator’s unlawful purpose and he or she
specifically intends to, and does in fact, aid, facilitate, promote,
encourage, or instigate the perpetrator’s commission of that
crime. [¶] If all of these requirements are proved, the defendant
does not need to actually have been present when the crime was
committed to be guilty as an aider and abettor. [¶] If you
conclude that defendant was present at the scene of the crime or

6

15

APPENDIX C

considered in making the determination of aiding and abetting
are: presence at the scene of the crime, companionship, and
conduct before and after the offense.’” (Ibid.)
“‘“‘When the sufficiency of the evidence is challenged on
appeal, the court must review the whole record in the light most
favorable to the judgment to determine whether it contains
substantial evidence—i.e., evidence that is credible and of solid
value—from which a rational trier of fact could have found the
defendant guilty beyond a reasonable doubt.’”’” (Nguyen, supra,
61 Cal.4th at pp. 1054–1055.)
Reviewing the evidence here in the light most favorable to
the judgment, we conclude there was sufficient evidence to
support Williams’s convictions as an aider and abettor. Williams
admitted that he was present during the planning and execution
of the shooting; that he got into the SUV knowing McKnight was
armed and knowing that he and his fellow gang members were
going out to do work, which he understood to mean killing people;
and that he did not do anything to stop Houston. He
nevertheless argues that this evidence is meaningless because he
took no action to aid and abet—he “did not do a thing to help”—
but only sat passively in the backseat wedged between two other
young gang members.
Williams likens himself to the defendant in People v.
Stankewitz (1990) 51 Cal.3d 72. There, the defendant’s testimony
“indicated that his involvement in the . . . events was extremely

failed to prevent the crime, you may consider that fact in
determining whether the defendant was an aider and abettor.
However, the fact that a person is present at the scene of a crime
or fails to prevent the crime does not, by itself, make him or her
an aider and abettor.”

16

APPENDIX C

limited; he was present when the others planned the kidnapping
and he obeyed Tina Topping’s directions to get into the car after
the abduction; he was aware defendant had a pistol and Marlin
Lewis had a knife; he remained in the car with the victim and
Lewis while the others went into the Olympic Hotel; and he
followed Topping’s order to give a false name to two police officers
when they questioned the group outside the Seven Seas Bar.”
(Id. at p. 91.) The Court found that “[a]t most, the foregoing
evidence demonstrated that [the defendant] was present during
the planning and execution of the offenses and failed to prevent
their commission. That is not sufficient to establish aiding and
abetting.” (Ibid.)
Williams distinguishes Nguyen, where our Supreme Court
upheld the defendant’s conviction on attempted murder as an
aider and abettor while he was sitting in the backseat of a car
during a drive-by shooting. There, the Court found that in
addition to the gang expert’s testimony, the “defendant’s act of
staring at the occupants of Tony’s car—followed by his car’s
maneuver in and out of the restaurant parking lot—could have
supported the inference that defendant was aware of the
impending shooting and acted to facilitate it by identifying Cheap
Boys members riding in Tony’s car.” (Nguyen, supra, 61 Cal.4th
at p. 1055.)
“Although defendant’s “‘mere presence alone at the scene of
the crime is not sufficient to make [him] a participant,’” his
presence in the car “‘may be [a] circumstance[] that can be
considered by the jury with the other evidence in passing on his
guilt or innocence.’”” (Nguyen, supra, 61 Cal.4th at p. 1055.)
Here, the gang expert testified that Williams’s presence in the
SUV, as part of the crew of gangsters who went on the murder

17

APPENDIX C

mission, contributed to the mission and aided its completion.
Young gang members in Williams’s position in the backseat aided
the attack because gangs are powered by numbers. Williams
acted as a lookout for rivals and police, which enabled the driver
and shooter to concentrate on finding and targeting a victim.
Young members like Williams act as backup in the event rival
gang members appear and challenge violence. Williams could
also confirm that the shooting took place.
Additionally, there was evidence that on the day of the
shooting, Houston had taken the young gang members out on an
earlier mission in which one of the youngsters had fired 17 shots
from a nine-millimeter handgun at seven rivals and missed them
all. The gang had to return to the gang hangout and rearm
before going out again.7 While that crime was not charged, a jury
could infer that Williams was along on that mission, and yet,
after returning to the gang hangout to rearm, Williams did not
abandon his fellow gang members. Instead, he went out on the
second mission which resulted in murder.
Further, the evidence suggested that Williams was proud of
the killing. The police found an image of a dead woman crossed
out and three lines in Williams’s bedroom. The gang expert
opined that the image was “absolutely not” mere doodling, and
that the lines represented accounts of what Williams had done,
“notch marks for killings.”

Houston bragged to Witness X that the missions went “all
night long,” and when they “came back off of one . . . we went out
on another one,” attacking rivals and somebody “got hit in the
midst.” He also boasted that after working 12 hours he still “hit
two hoods up, tore s**t up.”

7

18

APPENDIX C

Moreover, Williams repeatedly lied to the detectives about
the shooting, both during his first interview and in the beginning
of his second interview, even after they had told him he had been
identified as a participant. While it is true that lying by itself is
insufficient to prove guilt, as the jury was instructed, in
combination with the other evidence, it tended to prove
consciousness of guilt.
The evidence, taken together with the gang expert’s
testimony, was sufficient to establish that Williams knew of
Houston’s intent to kill, shared that intent, and aided the killing
by acting as a lookout and an eyewitness. “‘Evidence of a
defendant’s state of mind is almost inevitably circumstantial, but
circumstantial evidence is as sufficient as direct evidence to
support a conviction.’” (Nguyen, supra, 61 Cal.4th at p. 1055.) As
Nguyen concluded: “Appellate inquiry into the sufficiency of the
evidence ‘does not require a court to “ask itself whether it
believes that the evidence at the trial established guilt beyond a
reasonable doubt.” [Citation.] Instead, the relevant question is
whether, after viewing the evidence in the light most favorable to
the prosecution, any rational trier of fact could have found the
essential elements of the crime beyond a reasonable doubt.’
[Citation.] In other words, ‘it is the jury, not the appellate court
which must be convinced of the defendant's guilt . . . .’ [Citation.]
Although the issue is close, the record here contains substantial
evidence from which the jury could have found beyond a
reasonable doubt that [Williams] knew of and shared [Houston’s]
intent to kill . . . and acted to further the shooting.” (Id. at
pp. 1055–1056.)

19

APPENDIX C

II. There Was Sufficient Evidence That Williams Was a
Member of an Uncharged Conspiracy
Williams contends that his convictions on both counts must
be reversed because there was insufficient evidence that he was
part of an uncharged conspiracy to kill rival gang members.8
The prosecutor proceeded on the theories that Williams
was guilty as an aider and abettor, a conspirator, or both.
“‘A conviction of conspiracy requires proof that the
defendant and another person had the specific intent to agree or
conspire to commit an offense, as well as the specific intent to
commit the elements of that offense, together with proof of the
commission of an overt act “by one or more of the parties to such
agreement” in furtherance of the conspiracy.’ [Citation].” (People
v. Covarrubias (2016) 1 Cal.5th 838, 888.) “‘Evidence is sufficient
to prove a conspiracy to commit a crime “if it supports an
inference that the parties positively or tacitly came to a mutual
understanding to commit a crime. [Citation.] The existence of a
conspiracy may be inferred from the conduct, relationship,
interests, and activities of the alleged conspirators before and

We reject Williams’s argument that the facts of this case
preclude the finding that the jury could have only convicted him
under a conspiracy theory. Williams relies on the following jury
question: “We want to know if ‘a principle’ is [referring] to
somebody in the group, or Williams personally. [¶] [Referring] to
verdict allegations.” The trial court responded, in part, that
“Someone who is a principal (direct perpetrator or aider and
abettor) in the crime personally used and or discharged a firearm
causing death.” This response was correct. Houston, the shooter,
was both the direct perpetrator and someone in the group. Thus,
the jury’s true finding on the firearm enhancement does not
prevent conviction on a conspiracy theory.

8

20

APPENDIX C

during the alleged conspiracy.”’” (People v. Maciel (2013) 57
Cal.4th 482, 515–516.)
The evidence here showed that Williams got into the SUV
with fellow gang members knowing that McKnight was armed
and knowing that they were going out to do work, which Williams
admitted meant killing people; that Houston was training the
younger members how to commit a successful murder mission
after a failed mission; and that Houston did in fact kill someone.
This evidence was sufficient for the jury to infer that the gang
members positively or tacitly came to a mutual understanding to
commit a crime. The fact that Williams’s status in the gang
would have been enhanced by being part of a violent crime, his
persistent lying to authorities about his participation, and his
creation of a trophy in the image of the dead victim to
commemorate his accomplishment, suggests he agreed with the
plan to kill rivals and their associates.
III. Williams’s Confession Was Not the Product of
Coercion or Promises of Leniency
Williams contends the trial court committed prejudicial
error in admitting his statements to detectives during his second
interview. Specifically, Williams claims his statements were
involuntarily made because they were the product of coercive
police tactics.
“‘“In determining whether a confession was voluntary,
“‘[t]he question is whether defendant’s choice to confess was not
‘essentially free’ because his [or her] will was overborne.”’
[Citation.] Whether the confession was voluntary depends upon
the totality of the circumstances. [Citations.] “‘On appeal, the
trial court’s findings as to the circumstances surrounding the
confession are upheld if supported by substantial evidence, but

21

APPENDIX C

the trial court’s finding as to the voluntariness of the confession
is subject to independent review.’” [Citation.]” [Citation.]’”’”
(People v. McCurdy (2014) 59 Cal.4th 1063, 1086.)
Williams argues that his confession, i.e., that he knew the
gang was going out to kill and he was present during the
shooting, was induced by the detectives’ “threat that he would
face harsher punishment unless he told [the] detectives what
they believed the truth to be.” In particular, he relies on the
following statements by Detective Szymkowiak in response to his
inquiry of what charges would be brought against him: “We’ll
find out on Monday. And it’s gonna be a culmination of our
paperwork up to this day and whatever I write after tonight.
And I’m telling you, if I write tonight that your statement is a
bunch of lies, and it doesn’t match what we’ve already heard from
other witnesses and other co-conspirators and people involved, I
can tell you right now the District Attorney’s gonna be like,
‘Screw this guy.’ [¶] . . . [¶] He’s a liar.” (Italics added.)
Williams points out that after this statement, he kept it “one
hundred.”
The problem with Williams’s argument is that it does not
consider the totality of the circumstances. We have reviewed the
written transcript of his interview. No less than 16 times before
Williams finally began telling the truth, the detectives urged him
to tell the truth. Up to this point he continually lied and denied
being in the SUV. At least eight times before he told the truth,
the detectives explained to him that it was up to the district
attorney as to what charges would be brought against him. At
least three times before he told the truth, the detectives stated
that they could not make him any promises. Right before

22

APPENDIX C

Williams began to “keep it one hundred,” Detective Szymkowiak
reiterated that Williams was not going home like the last time.
Williams’s reliance on People v. Neal (2003) 31 Cal.4th 63 is
misplaced. There, the officer continued to speak to the defendant
after he had invoked his right to counsel and to remain silent,
badgered him, told him that if he did not cooperate the system
would “stick it” to him as hard as it could, and placed him in
custody overnight without food, drink or toilet facilities. (Id. at
p. 68.) The Court concluded that “in light of all the surrounding
circumstances —including the officer’s deliberate violation of
Miranda;9 defendant’s youth, inexperience, minimal education,
and low intelligence; the deprivation and isolation imposed on
defendant during his confinement; and a promise and a threat
made by the officer” his subsequent confession was involuntary.
(People v. Neal, supra, at p. 68.) These circumstances did not
exist here. There was no Miranda violation, Williams was
allowed to use the bathroom when he asked, the interview was
not excessively long, he had already been interviewed by the
same detectives a month earlier, and the detectives repeatedly
stated that they could not make him any promises and explained
that the district attorney would decide the charges.
Likewise, People v. Gonzalez (2012) 210 Cal.App.4th 875 is
distinguishable. There the Court concluded that when “Agent
Lum also told Christopher during their meeting that unless
Christopher cooperated with police, he would be forced to write a
parole report recommending Christopher for the ‘maximum incustody time,’ which Agent Lum told Christopher he did not want
to write,” implied in the statement “was that if Christopher

9

Miranda v. Arizona (1966) 384 U.S. 436 (Miranda).

23

APPENDIX C

agreed to talk with detectives without counsel present his parole
agent would recommend a shorter sentence in the parole report.”
(Id. at p. 883.) The Court found the statement was a motivating
cause of Christopher’s decision to speak without counsel present.
(Id. at p. 884.) But here, the detectives repeatedly assured
Williams that they could not make him any promises and that
the district attorney would make the ultimate decision.
In People v. Carrington (2009) 47 Cal.4th 145, our Supreme
Court found there was no improper promise of leniency when a
sergeant conducting the interrogation “suggested it would be
beneficial to defendant if the officers could deliver to the district
attorney an ‘entire package’ encompassing all the crimes and
inform the prosecution that defendant fully cooperated with the
police.” (Id. at p. 174.) According to the Court: “The statements
made by the officers did not imply that by cooperating and
relating what actually happened, defendant might not be charged
with, prosecuted for, or convicted of the murder of [the victim].
The interviewing officers did not suggest they could influence the
decisions of the district attorney, but simply informed defendant
that full cooperation might be beneficial in an unspecified
way. . . . Under these circumstances, [the interrogating officer’s]
statement that he would inform the district attorney that
defendant fully cooperated with the police investigation did not
constitute a promise of leniency and should not be viewed as a
motivating factor in defendant's decision to confess.” (Id. at
p. 174.) The Court continued, “Here, the officers did not make
statements that were coercive; they did not threaten defendant
and did not specify how her continued denial of criminal
involvement could jeopardize her case.” (Ibid.)

24

APPENDIX C

Similarly here, the detectives did not indicate they could
influence the district attorney. Rather, they urged Williams to
tell the truth and explained that they would report to the district
attorney what he had told them. It is well established that
“‘“mere advice or exhortation by the police that it would be better
for the accused to tell the truth when unaccompanied by either a
threat or a promise does not render a subsequent confession
involuntary.”’” (People v. Carrington, supra, 47 Cal.4th at
p. 174.) There is no evidence that being reminded that the
decision on his charges would ultimately be decided by the
district attorney and that being perceived as “a liar” would only
hurt his situation was the motivating force behind Williams’s
decision to truthfully discuss the events surrounding the murder.
Indeed, by the time he told the truth, Williams knew he would
not be going home and the detectives had told him numerous
times to tell the truth.
Under these circumstances, we find the statements were
not involuntarily made and were properly admissible.
IV. Houston’s Statements to Witness X About Williams
Were Admissible
Williams contends the trial court committed prejudicial
error in admitting Houston’s statements to Witness X about
Williams because they did not constitute statements against
Houston’s penal interest.
Pursuant to Evidence Code section 1230, a hearsay
statement is admissible if it is a statement against the
declarant’s penal interest. The rationale for this hearsay
exception is that “‘a person’s interest against being criminally
implicated gives reasonable assurance of the veracity of his
statement made against that interest,’ thereby mitigating the

25

APPENDIX C

dangers usually associated with the admission of out-of-court
statements.” (People v. Grimes (2016) 1 Cal.5th 698, 711.) “‘In
determining whether a statement is truly against interest within
the meaning of Evidence Code section 1230, and hence is
sufficiently trustworthy to be admissible, the court may take into
account not just the words but the circumstances under which
they were uttered, the possible motivation of the declarant, and
the declarant’s relationship to the defendant.’” (Ibid.) We review
a trial court’s decision finding a statement admissible under
Evidence Code section 1230 for abuse of discretion. (Ibid.)
Williams’s failure to object to the admission of Houston’s
statements to Witness X forfeits the issue on appeal. (See People
v. Trujillo (2015) 60 Cal.4th 850, 856.) In any event, there is no
merit to his contention.
During his conversation with Witness X in jail, Houston
identified Williams (Baby Beefy) as one of the young gang
members who was with him on the night of the murder and who
could identify Houston as the shooter. Houston suspected that
Williams was snitching on him and concluded that he had to kill
Williams to prevent him from implicating Houston.
Two recent Supreme Court cases confirm there was no
abuse of discretion in admitting Houston’s statements. In People
v. Cortez (2016) 63 Cal.4th 101, our Supreme Court expressly
rejected the contention Williams makes here that a declarant
gang member’s identification of another gang member who was
with the declarant during a drive-by shooting is not disserving to
the declarant’s penal interest. The Court found that the
declarant’s “identification of defendant by name, viewed in
context, specifically disserved his penal interest in several
respects,” because, among other things, the declarant knew that

26

APPENDIX C

‘being linked to’ defendant ‘would implicate’ him in a drive-by
shooting for which defendant had been arrested. (Id. at p. 127.)
The Court also found that the declarant’s statement implicating
the defendant was in no way exculpatory because, like here, the
declarant assigned the most blame to himself by admitting he
was the shooter and he never attempted to shift the blame to the
defendant. (Id. at p. 128.) The Court also found that the context
in which the statements were made—a conversation with a close
family member in an apartment he frequented—did not suggest
the declarant was trying to improve his situation with police, but
instead promoted truthfulness. Likewise, here, Houston made
the statement in a setting that promoted its truthfulness—to a
fellow gang member he knew from his prior time in prison, who
would not be expected to snitch on him.
In People v. Grimes (2016) 1 Cal.5th 698, our Supreme
Court also found admissible statements by a declarant that he
alone stabbed the victim. “We therefore conclude that Morris’s
statements to Misty and Lawson that he acted alone and that
defendant and Wilson appeared startled when he killed Bone
were so disserving to his interests that a reasonable person in his
position would not have made them unless they were true. The
statements were thus admissible under Evidence Code section
1230.” (Id. at p. 719.)
V. The Gang Expert’s Testimony Was Not Case Specific
In his opening, reply, and supplemental briefs, Williams
contends the trial court committed prejudicial error by allowing
the prosecution’s gang expert to rely on case-specific hearsay that
violated both state law hearsay rules and federal constitutional
testimonial hearsay rules. Specifically, Williams challenges the
following testimony by Detective McDonagh, given in response to

27

APPENDIX C

a hypothetical asked by his own counsel as to whether a young
gang member who got into a vehicle when told to do so by an
older gang member with a gun did so voluntarily: “So him saying
that, you know, he thought that he was ordered or coerced or
whatever to get in the car, he—I believe that—in my opinion and
speaking to other gang members, he did that voluntarily.” (Italics
added.)
In People v. Sanchez (2016) 63 Cal.4th 665, 684 (Sanchez),
our Supreme Court held that “When any expert relates to the
jury case-specific out-of-court statements, and treats the content
of those statements as true and accurate to support the expert’s
opinion, the statements are hearsay.” (Id. at p. 686.) The
statements must therefore be independently proven or covered by
a hearsay exception to be admissible. (Ibid.) “Case specific facts
are those relating to the particular events and participants
alleged to have been involved in the case being tried.” (Id. at
p. 676.) Additionally, “[i]f the case is one in which a prosecution
expert seeks to relate testimonial hearsay, there is a
confrontation clause violation unless (1) there is a showing of
unavailability and (2) the defendant had a prior opportunity for
cross-examination, or forfeited that right by wrongdoing.” (Id. at
p. 686.) Testimonial statements are “‘out-of-court analogs, in
purpose and form, of the testimony given by witnesses at trial.’”
(Id. at p. 685.)
Williams argues that Detective McDonagh related casespecific hearsay by stating that he spoke to other gang members,
which at a minimum violates state hearsay law. According to
Williams, because Detective McDonagh concentrates on three
gangs, including Williams’s gang, he must have necessarily
spoken to 111 Neighborhood Crips gang members. Williams also

28

APPENDIX C

argues that the statement by Detective McDonagh constitutes
testimonial hearsay because the detective must have acquired
this information either while investigating the instant case or
while investigating ongoing cases, since he works in the gang
unit and his job is to investigate crimes. We disagree.
We find Detective McDonagh’s statement to be based on
generalized background information that informed his opinion
regarding the cultural norms and expectations of a gang and its
members. Detective McDonagh testified that he had worked in
the gang unit for eight years, during which he had spoken to
“hundreds of gang members” developing his understanding and
expertise of the dynamics and culture of gangs. His contacts with
gang members arose from both consensual and nonconsensual
interactions.
Sanchez acknowledged that “experts may relate
information acquired through their training and experience, even
though that information may have been derived from
conversations with others, lectures, study of learned treatises,
etc. This latitude is a matter of practicality.” (Sanchez, supra, 63
Cal.4th at p. 675.) “Any expert may still rely on hearsay in
forming an opinion, and may tell the jury in general terms that he
did so.” (Id. at p. 685.) Sanchez clarified: “Our decision does not
call into question the propriety of an expert’s testimony
concerning background information regarding his knowledge and
expertise and premises generally accepted in his field. Indeed, an
expert’s background knowledge and experience is what
distinguishes him from a lay witness, and, as noted, testimony
relating such background information has never been subject to
exclusion as hearsay, even though offered for its truth. Thus, our
decision does not affect the traditional latitude granted to experts

29

APPENDIX C

to describe background information and knowledge in the area of
his expertise. Our conclusion restores the traditional distinction
between an expert’s testimony regarding background information
and case-specific facts.” (Ibid.)
Detective McDonagh did not state case-specific or
testimonial facts. He did not identify anyone by name, he did not
state which gang they were from, he did not reveal the content of
his conversations, he did not indicate that he spoke to the
unidentified gang members in connection with the instant case or
while he was investigating any ongoing case at all. He merely
made a generalized reference to a body of knowledge acquired
over time from multiple sources.
Moreover, any error in allowing the statement was
harmless under any standard. Williams admitted to the
detectives who interviewed him that he had refused to participate
in past acts of criminality without any repercussions, and that he
did not resist participating in the instant case. Detective
McDonagh had already explained to the jury that the tactical
choices made by a gang to kill rivals involved bringing along
additional members to act as lookouts, backups, and
eyewitnesses. Thus, Detective McDonagh’s reliance on the
expectations of how a gang, even the 111 Neighborhood Crips
gang, would function in carrying out an attack in rival territory
was merely cumulative.
VI. Gang Expert May Opine on Ultimate Issues
Building on his last contention, Williams contends the trial
court committed prejudicial error in allowing the gang expert to
testify, in response to a hypothetical, that Williams voluntarily
entered the SUV and thereby benefitted the gang.

30

APPENDIX C

Williams acknowledges that our Supreme Court in People
v. Vang (2011) 52 Cal.4th 1038, 1048 (Vang), found that the gang
expert “properly could, and did, express an opinion, based on
hypothetical questions that tracked the evidence, whether the
assault, if the jury found it in fact occurred, would have been for
a gang purpose.” The Court reiterated that expert opinion that
particular criminal conduct benefitted a gang is permissible
(ibid.), even if it embraces the ultimate issue to be decided by the
jury (id. at p. 1050). Williams acknowledges that we are bound
by Vang, but nevertheless urges us to reconsider and narrow it.
We will not do so.
VII. There Was Sufficient Evidence of the Gang’s Primary
Activities
Williams contends there was insufficient evidence of the
gang’s primary activities so as to support the gang enhancement
and gang special circumstance. This contention is without merit.
“Sufficient proof of the gang’s primary activities might
consist of evidence that the group’s members consistently and
repeatedly have committed criminal activity listed in the gang
statute. Also sufficient might be expert testimony.” (People v.
Sengpadychith (2001) 26 Cal.4th 316, 324.)
When asked about the gang’s primary activities, Detective
McDonagh stated that the primary activities “could be anywhere
from graffiti, narcotics sales, shootings, murders. This is all
something that this street gang participates in.” Williams argues
that the statement “could be” is insufficient because it is not the
equivalent of “was” or “were.” (Italics added.) But this argument
wholly ignores the remainder of Detective McDonagh’s testimony.
He specifically stated, “This is all something that this street gang
participates in.” (Italics added.) Additionally, when asked:

31

APPENDIX C

“Have you yourself, based on the years that you have worked this
gang, seen instances of these different types of crimes being
committed by this gang?” Detective McDonagh responded, “Yes.”
He further stated: “These are the activities that they do. These
are their primary things that they’re doing—I don’t want to say
on a daily basis, but on a weekly basis. Monthly basis. This is
what the gang does.” (Italics added.)
The evidence was sufficient.
VIII. There Was Instructional Error Regarding the
Natural and Probable Consequences Doctrine
Williams contends the trial court committed prejudicial
error “because its instructions allowed the jury to find that the
murder of James was the natural and probable consequence of
the conspiracy to murder Woods (the victim of the attempted
murder), which precludes premeditation.” We agree.
Because Williams was not the actual gunman, the
prosecutor argued to his jury that he was guilty either as a direct
aider and abettor or as a conspirator or both. Williams’s jury was
instructed with CALCRIM No. 417 that Williams could be found
guilty of the murder of James under the theory that her murder
was the natural and probable consequence of the conspiracy to
murder Woods.10

The instruction stated that to prove Williams is guilty of
counts 1 and 2, the People must prove that “1. The defendant
conspired to commit one of the following crimes: murder of
Diondre Woods; [¶] 2. A member of the conspiracy committed
murder of Kashmir James to further the conspiracy; [¶] AND
[¶] 3. The murder of Kashmir James was a natural and probable
consequence of the common plan or design of the crime that the
defendant conspired to commit.”

10

32

APPENDIX C

In People v. Chiu (2014) 59 Cal.4th 155, 158-159 (Chiu), our
Supreme Court held that “an aider and abettor may not be
convicted of first degree premeditated murder under the natural
and probable consequences doctrine. Rather, his or her liability
for that crime must be based on direct aiding and abetting
principles.” The Court reasoned that “the connection between the
defendant’s culpability and the perpetrator’s premeditative state
is too attenuated to impose aider and abettor liability for first
degree murder under the natural and probable consequences
doctrine, especially in light of the severe penalty involved and the
above stated public policy concern of deterrence.” (Id. at p. 166.)
The Court therefore concluded that “punishment for second
degree murder is commensurate with a defendant’s culpability
for aiding and abetting a target crime that would naturally,
probably, and foreseeably result in a murder under the natural
and probable consequences doctrine.” (Ibid.) In People v. Rivera
(2015) 234 Cal.App.4th 1350, 1356, review denied, the Court
concluded that the reasoning of Chiu applied equally to
uncharged conspiracy liability.
The People argue that Chiu and Rivera are inapplicable
where, as here, the target offense is itself premeditated murder.
In Chiu, the target offense was assault or disturbing the peace; in
Rivera, the target offense was shooting at an occupied vehicle. In
In re Leslie Brigham (2016) 3 Cal.App.5th 318 (Brigham), the
first appellate district rejected this argument. In Brigham, the
petitioner on a habeas corpus writ was a hit man, and along with
another hit man, drove the car to find the intended victim. Once
the petitioner realized the man he had spotted was not the
intended victim, he told his accomplice not to shoot and tried to
physically stop him, but the accomplice fired anyway, killing the

33

APPENDIX C

unintended victim. (Id. at p. 324.) Brigham concluded that if the
petitioner’s defense was believed, he could not have shared the
subjective and personal mental state required for first degree
premeditated murder. (Id. at. p. 328.)
Like Brigham, the jury here was also instructed with the
transferred intent doctrine (CALCRIM No. 562 [“If the defendant
intended to kill one person, but by mistake or accident killed
someone else instead, then the crime, if any, is the same as if the
intended person had been killed”]). As Brigham points out,
however, the doctrine of transferred intent applies only where the
gunman intends to kill one person and unintentionally kills
another. (Brigham, supra, 3 Cal.App.4th at p. 328.) While the
prosecutor argued to Williams’s jury that James was not an
intended victim (she was “collateral damage,” a “bystander[],” an
“innocent person”), there was evidence from which the jury could
conclude that James was not an unintended victim but rather an
intended target, along with presumed gang member Woods.
James was a woman, whereas Woods was a man. The SUV
slowed when it passed the victims. Woods had his back to the
street, but James was facing the street. It is unlikely that
Houston would not have seen that James was a woman,
especially because bystander Jefferson, standing much farther
away, saw that she was a woman. Houston, the shooter, also
admitted he was glad she was killed, implying she was a direct
target because of her association with a rival gang member (“I
don’t feel bad, she was Tramp associated”). Houston also
described how Woods used James as a shield, yet he shot at her
anyway, including while she was lying on top of Woods.

34

APPENDIX C

Like in Brigham, the prosecutor did not rely on the
transferred intent theory, but also argued that the natural and
probable consequence of James’s murder was an independent
means for finding Williams guilty of first degree murder: “If
Mr. Houston shot Kashmier James to further the goal of the hunt
which he of course did because he’s trying to get at Mr. Woods;
and if the shooting and killing of Miss James is a natural and
probable consequence of the plan to go hunt and kill rivals. [¶]
. . . That means that Mr. Williams, under conspiracy, does not
have to lift a finger.” The prosecutor repeated: “Under the law
he is guilty either as a conspirator or as an aider and abettor or
both. But at a bare minimum, he’s guilty as a conspirator. At a
bare minimum. Because there is no conduct requirement.”
Where, as here, the jury has been instructed on both a
legally permissible theory of first degree murder and an
impermissible theory of liability under the natural and probable
consequences doctrine, reversal is required unless there is a basis
in the record to find that the verdict was based on a valid ground.
(Chiu, supra, 59 Cal.4th at p. 167.) “Defendant’s first degree
murder conviction must be reversed unless we conclude beyond a
reasonable doubt that the jury based its verdict on the legally
valid theory that defendant directly aided and abetted the
premeditated murder.” (Ibid.) We cannot do so here.
During deliberations, Williams’s jury asked about
CALCRIM No. 521 (First Degree Murder): “The defendant is
guilty of 1st degree murder if the People have proved that he
acted willfully, deliberately, with premeditation. In this case,
does (he) refer to Williams only or the gang (N111) as [a] unit:
ex: the people in the car that night?” After consulting with
counsel, the trial court responded: “If the jury concludes that

35

APPENDIX C

defendant Williams either personally has the intent described in
[CALCRIM No.] 521 or satisfies the intent required as an aider
and abettor in instruction [CALCRIM No.] 401, or as a coconspirator in instruction[s] [CALCRIM Nos.] 417 & 418, then
the jury may find him guilty of first degree murder. Please refer
to all of these instructions listed here. The people must prove
that the defendant is guilty beyond a reasonable doubt under any
of these theories.” Thus, in addition to erroneously giving the
written instruction on natural and probable consequences, the
trial court emphasized the issue by instructing the jury that it
could find Williams guilty of first degree premeditated murder
based on a conspiracy theory. Under these circumstances, we
cannot say beyond a reasonable doubt that Williams’s jury relied
on the valid theory of direct aiding and abetting.
Under Chiu, the proper remedy is reversal of the first
degree murder conviction and to allow the People to accept a
reduction of the conviction to second degree murder or to retry
the greater offense under a direct aiding and abetting theory.
(Chiu, supra, 59 Cal.4th 155.)
IX. The Restitution Fine is Stricken
In his supplemental brief, Williams adopts the reasons in
Houston’s appeal to argue that his victim restitution fine should
be stricken. For the reasons set forth in our discussion of
Houston’s appeal, we agree that the victim restitution fine for all
three appellants should be stricken and the issue remanded to
the trial court for a hearing on the amount of restitution.

36

APPENDIX C

X. Proposition 57
In his third supplemental brief, Williams contends his
judgment should be conditionally reversed and his case remanded
to the juvenile court to conduct a hearing on whether he is
eligible to be tried in adult court.
Proposition 57 was passed by the voters on November 8,
2016, and became effective on November 9, 2016. (Cal. Const.,
art. II, § 10.) As relevant here, Proposition 57 eliminated former
Welfare and Institutions Code section 707, subdivision (a)(2),
subparagraph D, which gave prosecutors discretion under certain
specified circumstances to directly file a case against a minor in
adult court. Proposition 57 also created a procedure by which a
prosecutor may make a motion to transfer a minor from juvenile
court to adult court (Welf. & Inst. Code, § 707, subd. (a)(1), (2)),
and, upon that motion, the juvenile court “shall decide whether
the minor should be transferred” based on a set of criteria set
forth in the statute (Welf. & Inst. Code, § 707, subd. (a)(2)).
In our initial opinion, we concluded that Proposition 57 was
not retroactive. Subsequently, in Lara, supra, 4 Cal.5th 299, our
Supreme Court reached the opposite conclusion, holding that the
relevant portion of Proposition 57 “applies to all juveniles
charged directly in adult court whose judgment was not final at
the time it was enacted.” (Lara, supra, at p. 304.)
In a supplemental brief filed after the case was remanded
to this court (Cal. Rules of Court, rule 8.200(b)), Williams argues
that—given his current age of 23 and the fact that the shooting
took place when he was 15 years old and he has been in custody
nearly seven years—the juvenile court should first determine
whether a transfer hearing is even feasible. He asks us to direct
the juvenile court to make this threshold determination. We see

37

APPENDIX C

no reason to add another step to the process already approved by
the Supreme Court in Lara. (Lara, supra, 4 Cal.5th at p. 313.)
Lara approved the procedure set forth in People v. Vela
(2017) 11 Cal.App.5th 68, 72, and we adhere to that procedure
here. Accordingly, we conditionally reverse Williams’s conviction
of premeditated and deliberate attempted murder as well as the
true findings by the jury. We remand the matter to the juvenile
court for a transfer hearing wherein the court shall determine
Williams’s fitness for treatment within the juvenile justice
system. (Welf. & Inst. Code, § 707.) If Williams is found unfit for
juvenile court treatment, the case shall be transferred to adult
court and his conviction for premeditated and deliberate
attempted murder as well as the jury’s true findings shall be
reinstated. (Welf. & Inst. Code, § 707.1, subd. (a).) If Williams is
found fit for juvenile court treatment, the juvenile court shall
treat his conviction for premeditated and deliberate attempted
murder and the jury’s true findings on the allegations as
appropriate juvenile adjudications and impose an appropriate
juvenile disposition after a dispositional hearing. (Welf. & Inst.
Code, §§ 602, 702, 706.)
MCKNIGHT’S APPEAL
I. The Gang’s Expert’s Testimony Was Admissible
Like Williams, McKnight contends the trial court
committed prejudicial error in admitting the gang expert’s
testimonial hearsay of what gang members told him about the
role of a passive passenger. Unlike Williams, McKnight does not
cite any specific testimony by Detective McDonagh that he claims
was inadmissible. Assuming he challenges the same testimony
as does Williams, we have already concluded that this testimony
was not testimonial and was admissible.

38

APPENDIX C

McKnight also joins in Williams’s contention that the gang
expert should not have been allowed to opine, in response to a
hypothetical question, that appellants’ actions benefitted the
gang. As we noted in discussing Williams’s appeal, such
testimony is permissible pursuant to Vang, supra, 52 Cal.4th
1038.
II. There Was Sufficient Evidence of the Gang’s Primary
Activities
McKnight joins in and incorporates Williams’s contention
and argument that there was insufficient evidence of the gang’s
primary activities so as to support the gang enhancement and
gang special circumstance. For the same reasons, we find no
merit to this contention.
III. The Instructional Error Was Harmless
McKnight also joins in and incorporates Williams’s
contention that he cannot be convicted of first degree murder
because his jury was erroneously instructed that it could find the
murder of James was the natural and probable consequence of
the conspiracy to murder Woods.
Without repeating our discussion of Chiu and Rivera, we
conclude there was instructional error in McKnight’s case based
on the giving of the natural and probable consequences doctrine
under a theory of conspiracy liability. But unlike Williams’s case,
we conclude the error was harmless beyond a reasonable doubt.
First, while Williams’s case was somewhat closer in terms
of aiding and abetting liability, the evidence that McKnight was a
direct aider and abettor was overwhelming. McKnight and
Houston were directly “politicking” or arguing about McKnight’s
lack of putting in work for the gang. McKnight took up the
challenge by instigating the actual mission into Eight Trey

39

APPENDIX C

gangster territory to go killing on Christmas. McKnight ordered
the younger gang members to get into the SUV, he drove the
SUV 30 blocks into rival gang territory, he slowed the SUV as it
passed the victims, he brought along the murder weapon and
gave it to Houston, he stopped the SUV and waited while
Houston got out and did the shooting, and he was the getaway
driver who sped off after the shooting. There was no suggestion
that he told Houston not to shoot a woman. Later, the distinctive
rims on the SUV were removed and recovered at McKnight’s
residence.
Second, unlike with Williams’s jury, the prosecutor did not
emphasize, and barely mentioned, to McKnight’s jury the theory
of conspiracy liability. She also did not discuss the natural and
probable consequences doctrine.
Third, McKnight’s jury did not submit any jury questions,
unlike Williams’s jury, which asked about premeditation, and
was further instructed that Williams could be convicted of
premeditated murder on a conspiracy theory.
We conclude beyond a reasonable doubt that the jury
convicted McKnight on a direct aiding and abetting theory.
IV. Reversal of Fines
McKnight adopts Houston’s arguments that his parol
revocation and victim restitution fines must be reversed. For the
reasons discussed below, we agree.

40

APPENDIX C

HOUSTON’S APPEAL
I. No Abuse of Discretion in Admission of Statements to
Witness X
Houston contends the trial court prejudicially erred, and
violated his constitutional rights, in allowing certain testimony
from Witness X, namely, that Houston had been in prison before
and had committed other uncharged crimes.
A. Relevant Background
Prior to trial, the prosecutor moved to admit evidence of the
jail conversation secretly recorded between Witness X and
Houston. In response, defense counsel moved to exclude portions
of that conversation which referenced Houston’s previous time in
prison and his having committed prior uncharged crimes.
Defense counsel offered to stipulate that the two men knew
each other. The prosecutor refused the stipulation and the trial
court found that the prosecutor had the right to present the jury
with more context to the relationship for purposes of the jury’s
credibility determinations.
Regarding specific redactions to the conversation proposed
by defense counsel, the trial court overruled defense counsel’s
objection to Witness X stating that he and Houston had “walked
the yard,” and that Houston used to give him items out of his
packages. Defense counsel offered to stipulate that they were
friends and noted that the prosecutor would show that the two
men were from the same gang and neighborhood. The court
found that a stronger bond would exist between Houston and the
informant based on their time together in prison than from
belonging to the same gang. The court also did not believe that
the average juror would necessarily know what the reference to

41

APPENDIX C

“the yard” meant or that it meant Houston was in a
postconviction custody situation.
The trial court next overruled defense counsel’s objection to
Witness X stating that Houston “was out there regulating that
shit,” on the ground that it did not refer to any specific act.
The trial court refused to order a redaction to the portion of
the conversation in which Houston described a prior incident
involving him and other gang members coming from a robbery in
Hollywood with a gun, seeing some members of the rival Eight
Trey Gangsters, and shooting at them. The court found that the
statements went “directly to motive” and that “[i]t is the same
gang involved.”
Finally, the trial court rejected defense counsel’s objection
to Houston’s reference that he had gone on multiple missions in
the past. The court found that this statement did not refer to a
specific prior act and showed that he was an active gang member.
B. Relevant Law

Evidence Code section 352 gives the trial court discretion to
exclude evidence “if its probative value is substantially
outweighed by the probability that its admission will
(a) necessitate undue consumption of time or (b) create
substantial danger of undue prejudice, of confusing the issues, or
of misleading the jury.”
Evidence Code section 1101, subdivision (a) provides that
“evidence of a person’s character . . . [including] evidence of
specific instances of his or her conduct . . . is inadmissible when
offered to prove his or her conduct on a specified occasion.”
Evidence Code section 1101, subdivision (b) allows evidence
of a prior crime or bad act “to prove some fact (such as motive,
opportunity, intent, preparation, plan, knowledge, identity,

42

APPENDIX C

absence of mistake or accident . . .) other than his or her
disposition to commit such an act.”
Evidence Code section 1101, subdivision (c) provides that
“Nothing in this section affects the admissibility of evidence
offered to support or attack the credibility of a witness.”
“On appeal, we review for abuse of discretion a trial court’s
ruling on whether evidence is relevant, not unduly prejudicial,
and thus admissible.” (People v. McKinnon (2011) 52 Cal.4th
610, 655.)
C. Analysis
Houston’s prior imprisonment was relevant and highly
probative on the issue of his credibility regarding the admissions
he made while talking to Witness X. Houston’s having previously
served time with Witness X enhanced the believability of the
statements Houston made regarding the details of this case. This
is so because a shared experience in custody created a special
bond. The jury could find that Houston would be more open to
telling the truth to Witness X and less likely to simply be
bragging, as he might to someone he had just met in jail. Merely
telling the jury that the two either knew each other, were friends,
or were members of the same larger gang organization, while still
relevant, would not have the same impact as the bond between
two members of the same gang who had served prison time
together. The credibility of Houston’s statements was critical to
the prosecution of his crimes and gang enhancements. Moreover,
the jury was never told the reason for his incarceration, whether
he was in fact convicted or what crime he committed. Because
Houston admitted killing James and expressed a total lack of
remorse for the murder of an innocent woman in front of her
three-year-old daughter, any prejudice from the jury considering

43

APPENDIX C

the possibility that Houston had been previously incarcerated
was greatly outweighed by the evidence’s probative value on the
issue of his believability.
With respect to Houston’s admissions of prior gang-related
violent activities, the People concede that evidence of a
defendant’s prior uncharged offenses is potentially highly
prejudicial and must be carefully considered. (See People v.
Ewoldt (1994) 7 Cal.4th 380, 404.) But Evidence Code section
352 requires the exclusion of evidence only when its probative
value is “substantially outweighed” by its prejudicial effect.
“Evidence is substantially more prejudicial than probative . . . if,
broadly stated, it poses an intolerable ‘risk to the fairness of the
proceedings or the reliability of the outcome’ [citation].” (People
v. Waidla (2000) 22 Cal.4th 690, 724.)
Houston’s recounting of his prior criminal escapades on
behalf of his gang, which emphasized his leadership role and
unwavering loyalty to his gang’s culture of extreme violence, was
direct and powerful evidence that his involvement in the instant
murder and attempted murder was in association with, for the
benefit of, and at the direction of the 111 Neighborhood Crips
gang and supported the gang special circumstance. Houston’s
reminisces with Witness X showed how, as one of the oldest
active members of the gang, he had carried on the gang’s cultural
imperative of extreme violent crime and was teaching this
culture to the younger generation. This evidence gave credence
to Houston’s explanation of what he was doing on Christmas
night in 2010, including his motive, intent and premeditation to
murder rivals, and the murder’s inextricable link to the 111
Neighborhood Crips gang.

44

APPENDIX C

The evidence concerning Houston’s charged offenses was
far more inflammatory and shocking than the evidence of his
uncharged acts. This circumstance decreased the potential for
prejudice because it is unlikely that the jury disbelieved his
statements regarding the charged offenses but nevertheless
convicted him based on the uncharged offenses or that the jury's
passions were inflamed by the evidence of defendant's uncharged
offenses. (See People v. Ewoldt, supra, 7 Cal.4th at p. 405.)
We find no abuse of discretion in the admission of the
challenged evidence. We necessarily find no constitutional
violation.
II. Reversal of Fines
Houston contends that the victim restitution fine and the
parole revocation fine should be reversed.
Houston argues (with Williams and McKnight joining) that
there was no notice given to anyone that the trial court would
fine appellants jointly and severely in the amount of $73,472 plus
10 per cent interest for victim restitution. Neither the probation
reports nor the prosecutor’s sentencing memorandum make
mention of victim restitution, nor do they contain any evidence
supporting the amount of such restitution. At sentencing, the
trial court made a passing reference to “some materials
submitted from the Victim Compensation and Government
Claims Board in the amount of $73,472.” There is no indication in
the record that any defense counsel or the prosecutor received
such materials at any time.
A defendant has a “right to a hearing before a judge to
dispute the determination of the amount of restitution.”
(§ 1202.4, subd. (f)(1).) Because defense counsel had rested their
cases before the trial court imposed sentence and had no notice

45

APPENDIX C

that victim restitution would be imposed, we remand the matter
for a restitution hearing. (People v. Sandoval (1989) 206
Cal.App.3d 1544, 1550 [“Because defendant was denied a
reasonable opportunity to contest the accuracy of the amount of
damages claimed, the order for restitution to the victim must be
reversed and the cause remanded to allow defendant an
opportunity to be heard on this issue”].)
Houston also contends (along with McKnight), and the
People agree, that the parole revocation fine of $10,000 must be
stricken because Houston and McKnight were sentenced to life
without the possibility of parole. They are correct. (People v.
Samaniego (2009) 172 Cal.App.4th 1148, 1184 [“As appellants
were each sentenced to life without the possibility of parole, there
can be no parole, and therefore the parole revocation fine was
improperly assessed”].)
DISPOSITION
As to Houston and McKnight, the parole revocation and
victim restitution fines are reversed and the matter is remanded
for a hearing on the amount of victim restitution; in all other
respects their judgments are affirmed.
As to Williams, we reverse the judgment of conviction for
first degree murder and we reverse the victim restitution fine
imposed against him. We conditionally reverse his conviction of
premeditated and deliberate attempted murder as well as the
true findings by the jury. We remand the matter to the juvenile
court for a transfer hearing wherein the court shall determine
Williams’s fitness for treatment within the juvenile justice
system. (Welf. & Inst. Code, § 707.)

46

APPENDIX C

If Williams is found unfit for juvenile court treatment, the
case shall be transferred to adult court and his conviction for
premeditated and deliberate attempted murder as well as the
jury’s true findings shall be reinstated, and a new hearing is
required on the amount of the victim restitution.
If Williams is found fit for juvenile court treatment, the
juvenile court shall treat his conviction for premeditated and
deliberate attempted murder and the jury’s true findings on the
allegations as appropriate juvenile adjudications and impose an
appropriate juvenile disposition, including any victim restitution
fine, after a dispositional hearing. (Welf. & Ins. Code, §§ 602,
702, 706, 730.6.)
In either case, the People may elect to retry Williams for
first degree murder as a direct aider and abettor.
NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS.

___________________, Acting P. J.
ASHMANN-GERST
We concur:
____________________, J.
CHAVEZ
____________________, J.*
GOODMAN

Retired judge of the Los Angeles Superior Court, assigned
by the Chief Justice pursuant to article VI, section 6 of the
California Constitution.
*

47

APPENDIX C

